<html>
<title> - COMMUNITY-BASED LAND MANAGEMENT AND CHARTER FORESTS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
          COMMUNITY-BASED LAND MANAGEMENT AND CHARTER FORESTS
=======================================================================




                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, April 25, 2002

                               __________

                           Serial No. 107-108

                               __________

           Printed for the use of the Committee on Resources









 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______


                           U.S. GOVERNMENT PRINTING OFFICE
78-923                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 25, 2002...................................     1

Statement of Members:
    Inslee, Hon. Jay, a Representative in Congress from the State 
      of Washington..............................................     2
    Rahall, Hon. Nick J. II, a Representative in Congress from 
      the State of West Virginia, Prepared statement of..........     4
    Simpson, Hon. Michael K., a Representative in Congress from 
      the State of Idaho.........................................     1
    Udall, Hon. Tom, a Representative in Congress from the State 
      of New Mexico..............................................     3

Statement of Witnesses:
    Anderson, Michael, Senior Resource Analyst, The Wilderness 
      Society....................................................    20
        Prepared statement of....................................    22
    Garrett, Dr. L. David, Executive Director, National Forest 
      County Partnership Restoration (CPR) Program, Representing 
      CPR Managing Partners, County Commissioners and Forest 
      Supervisors................................................    25
        Prepared statement of....................................    27
    O'Laughlin, Jay, Ph.D., Director, Idaho Forest, Wildlife and 
      Range Policy Analysis Group, and Professor, Department of 
      Forest Resources, University of Idaho, Representing the 
      Society ofAmerican Foresters...............................    11
        Prepared statement of....................................    12
    O'Toole, Randal, Senior Economist, The Thoreau Institute.....    38
        Prepared statement of....................................    40
    Williams, Hon. Pat, Former Congressman from the State of 
      Montana, and Senior Fellow and Regional Policy Associate, 
      O'Connor Center for the Rocky Mountain West, University of 
      Montana....................................................     5
        Prepared statement of....................................     7















   OVERSIGHT HEARING ON COMMUNITY-BASED LAND MANAGEMENT AND CHARTER 
                                FORESTS

                              ----------                              


                        Thursday, April 25, 2002

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
room 1334, Longworth House Office Building, Hon. Mike Simpson 
presiding.

 STATEMENT OF THE HON. MICHAEL K. SIMPSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Simpson. [Presiding.] The Subcommittee on Forests and 
Forest Health will come to order.
    The Subcommittee is meeting today to hear testimony on 
Community-Based Land Management and Charter Forests.
    I ask unanimous consent that Representatives Thune and 
Rehberg have permission to sit on the dais and participate in 
the hearing. And without objection. So ordered.
    Under the Committee Rule 4(g), the Chairman and the ranking 
member can make opening statements. If any members have 
statements, they can be included in the hearing record under 
unanimous consent. I ask unanimous consent that Mr. Udall and 
Mr. Thune also be allowed to make opening statements.
    Today we have an assortment of ideas and opinions about 
community-based land management and charter forests that I am 
eager to hear about and discuss.
    I would like to welcome to the dais the Honorable John 
Thune.
    He is not here yet. Rain kind of slows us down in 
Washington a little bit.
    [Laughter.]
    He also asked to join the Subcommittee today.
    And I welcome our witnesses, the Honorable Pat Williams, 
Mr. Jay O'Laughlin, Mr. Michael Anderson, and Dr. L. David 
Garrett.
    He is here now, yes. Did you get caught in the traffic 
also?
    Mr. Garrett. A taxi.
    Mr. Simpson. I understand that.
    And Mr. Randal O'Toole, and Mr. Tom L. Thompson.
    This morning's hearing will begin with opening statements 
from members of the Subcommittee.
    Many Members of the House, including myself, have heard 
from constituents that management of our national forests is 
not meeting their expectations. I am of the opinion that there 
is always a better way to do things. I am happy that we have 
been able to work together on this issue in a bipartisan 
fashion and that the Forest Service has agreed to explore these 
ideas with us.
    I believe that our national forests can better be 
protected, managed, and that environmental quality can be 
improved. The good men and women of this Nation demand it of 
us.
    It is these same people that have attended community 
meetings, raised questions, voiced concerns, and devoted their 
time to the decisionmaking process. Unfortunately, too many of 
these people leave the process feeling unsatisfied, unheard, 
and defeated.
    While the process is important to deliver information and 
input, it is the end result that we seek. All over this Nation, 
grassroots organizations meet with one goal in mind: to better 
our national forests.
    With that in mind, a question lies before us today. We have 
an option to move forward with some type of charter forests 
legislation, and should we take it? And if so, how should it be 
crafted?
    Ladies and gentlemen, with that question in mind, I would 
like to turn to my colleague, Mr. Inslee, for his opening 
statement.

STATEMENT OF THE HON. JAY INSLEE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you, Mr. Simpson.
    I agree with Mr. Simpson that there is always a better way 
to do it, at least when the Republicans are in charge of 
Congress, but that is just an aside.
    [Laughter.]
    Mr. Simpson. That's right. I am glad you recognize that.
    Mr. Inslee. We welcome this hearing today to consider what 
is an undefined issue at the moment. I am interested in 
people's thoughts about what this really may mean with flesh on 
the bones.
    As with all new ideas, I think we ought to approach it with 
an open mind. But I do think it is important for us to maybe do 
two things. One, I hope that we will be taking a look at where 
we have had sort of experimental charter forests, in a sense, 
that have taken hold already, and see how they are doing. And 
second, I do think it is important to state at the outset of 
this discussion that I do not think ultimately we can lose 
sight of the fact that these are national assets and that if we 
design something of this nature, that it has to recognize the 
national value to the country as a whole.
    And I think that there is a reason for us to give scrutiny 
to these ideas, because it has been the history of this country 
that extractive industries have played perhaps a larger role in 
decisionmaking locally than they would if we made these 
decisions on a national basis. So I think we need to look at 
ways that that would not occur.
    And with that, I want to thank Mr. Simpson and Mr. McInnis 
for holding these hearings.
    Mr. Simpson. Thank you. Are there other opening statements?
    Mr. Udall of New Mexico. Mr. Chairman, I would like to give 
one.
    Mr. Simpson. The gentleman from New Mexico.

 STATEMENT OF THE HON. TOM UDALL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Udall of New Mexico. Thank you very much, Mr. Simpson. 
And I know that you are very interested in moving forward with 
something like this, and I look forward to working with you and 
other members of the Committee that want to move forward in a 
bipartisan fashion.
    Let me say, first, that I believe that community 
involvement is essential to land management in the West and 
other parts of the country. If established fairly, 
collaborative efforts will transform the way communities, 
environmentalists, other land users, and land managers work to 
address the complex issues of land and forests management.
    These partnerships can bring individuals with different 
ideologies together to manage our lands and forests.
    In the last Congress, Senator Jeff Bingaman introduced 
legislation to create collaborative forest restoration 
demonstration projects, which I strongly supported in the House 
and in this Subcommittee. These projects direct the Secretary 
of Agriculture to provide grants for projects addressing 
specified objectives, including wildfire threat reduction, 
ecosystem restoration, re-establishment of historic fire 
regimes, reforestation, and creation of local employment on 
Federal, tribal, state, county or municipal forest lands in New 
Mexico. The key aspect of this program is that it must be 
designed through a collaborative process involving the 
community and stakeholders.
    Mr. Chairman, we have pilot projects already in progress to 
study. In 2000, the Congress authorized three new programs: the 
Valles Caldera National Preserve in my congressional district; 
the Collaborative Forests Restoration Program; and the Resource 
Advisory Committees, the RACs, which all strive to increase the 
role of local residents in forests management.
    The Valles Caldera, for example, is being managed as a 
working ranch. The trustees are directed to protect and 
preserve the scientific, scenic, watershed, fish, and wildlife 
and recreational values, but they are also directed to provide 
for multiple uses on a sustainable basis of renewable resources 
within the preserve. By working together, these trustees are 
striving to share their knowledge, values, and leadership to 
foster collaborative stewardship of our public lands and 
forests.
    So let me say that I am very supportive of this idea. But 
if the idea of pilots and new forms of management means that we 
are turning this over to industry or turning it over 
exclusively to the locals without Federal involvement, I am 
worried in that respect. If it means that this idea, that has 
not really been fleshed out by the administration in terms of 
charter forests, means that we are going set aside 
environmental laws, I am concerned in that respect. And I think 
another part of this that is of great concern is if you have 
innovative forests people at the supervisor level, many times, 
when they try to get innovative and try to get creative, they 
are moved aside. And I think that is also a very disturbing 
trend.
    So with that, Mr. Simpson, I look forward to hearing the 
panel. We have some very distinguished individuals here, and I 
hope that we can learn from them on how to move forward on this 
collaborative management of Federal lands. Thank you.
    Mr. Simpson. I thank the gentleman from New Mexico.
    Are there other opening statements?
    Mr. Inslee. Mr. Chairman, can I put in the record Mr. 
Rahall's statement? Thank you.
    Mr. Simpson. Yes, his statement, without objection, will be 
included in the record.
    [The prepared statement of Mr. Rahall follows:]

Statement of The Honorable Nick J. Rahall, a Representative in Congress 
                    from the State of West Virginia

    The Administration's Fiscal Year 2003 budget request for the Forest 
Service includes two paragraphs on charter forests. There have been 
articles and op-eds on charter forests but no one really knows what 
they are. The Administration said legislation would be forthcoming but 
did not bring a copy to today's hearing.
    Charter forests appear to be an alternative management arrangement 
involving local residents in the day-to-day management of national 
forests. In my view, Charter forests are designer clothes for what the 
Sagebrush Rebellion, County Supremacy and Wise Use movements have been 
wearing for more than a century. Advocates of these movements would 
like to turn ownership of our national forests over to states, counties 
and even industry.
    Charter forests look like another effort to give select interests 
control of the land in the name of eliminating bureaucracy, gridlock 
and lawsuits. It is unclear what exemptions from existing Federal laws 
would be required. The extent to which Congressional appropriations 
would fund charter forests also is unclear. For forest units capable of 
funding portions of their budget through net revenues, there would 
likely be an incentive to charge recreation fees and encourage such 
activities as timber harvest and oil and gas extraction to raise 
revenues.
    Before we charter a new path, we need to understand the lessons we 
have learned from experimental management programs, such as the Valles 
Caldera National Preserve (Public Law 106-248) and the Resource 
Advisory Committees (Public Law 106-393) authorized in the county 
payments law last year. Ironically, the Administration opted in its 
budget request not to recommend funding for the Valles Caldera National 
Preserve at the same time it cited the Valles Caldera trust as a model 
for charter forests. In 1998 we authorized the Quincy Library Group 
pilot project (Public Law 103-354). There are those who believe Quincy 
has not worked but the Subcommittee refused to examine Quincy at this 
hearing.
    For more than 100 years the Congress has rejected efforts to turn 
public land over to communities. The Congress has maintained that 
national forests belong to all Americans, not just those living nearby. 
Our policy has been wise and we should stay this course.
                                 ______
                                 
    Mr. Simpson. All members' opening statements will be 
included in the record.
    I would like now to introduce our witnesses. Today we have 
the Hon. Pat Williams, former Congressman from the State of 
Montana, currently a Senior Fellow and Regional Policy 
Associate for the Center for the Rocky Mountain West at the 
University of Montana; Dr. Jay O'Laughlin, Society of American 
Foresters; Mr. Michael Anderson, Senior Resource Analyst, The 
Wilderness Society; Dr. L. David Garrett, National Forests 
County Partnership Restoration Program; Mr. Randal O'Toole, 
Senior Economist, The Thoreau Institute; and Mr. Tom Thompson, 
Deputy Chief for the National Forest System, the U.S. Forest 
Service.
    Mr. Thompson will not be giving testimony this morning. He 
is here to observe the testimony of the witnesses and to answer 
any questions.
    Let me remind the witnesses that under our Committee rules, 
you must limit your oral statements to 5 minutes, but that your 
entire statement will appear in the record.
    I will now recognize Mr. Williams for his statement. Mr. 
Williams?

STATEMENT OF THE HON. PAT WILLIAMS, FORMER CONGRESSMAN, SENIOR 
 FELLOW AND REGIONAL POLICY ASSOCIATE, O'CONNOR CENTER FOR THE 
           ROCKY MOUNTAIN WEST, UNIVERSITY OF MONTANA

    Mr. Williams. Thank you, Mr. Chairman, and ranking member 
and my colleagues. It is a great pleasure to be invited back to 
this Committee, where I spent 18 years before leaving to go 
home to Montana 6 years ago, where I have resumed what I was 
doing before I left, and that is teaching.
    I teach at the University of Montana. I wanted to go home 
and teach and comment. I do comment. I have a column in 
newspapers in a number of Western States, a newspaper column, 
and I do commentary on the radio and have a half-hour radio 
program.
    The reason for mentioning this is, if one is going to 
comment, one first has to listen and consider. And so I am 
pleased to be with you today to tell you what I have heard.
    The Rocky Mountain West is still a special place, the brow 
of America's last hill, a place in historic transition, with 
memories of yesterday and the promise of tomorrow. The Rocky 
Mountain West is indeed where the living is easy, but tensions 
are high, and nerve-endings are frayed.
    I brought some headlines with me from the last 3 day's 
newspapers from states in the Rocky Mountain West, and I want 
to share them with you this morning. They are as fresh as the 
day before yesterday, yesterday, and this morning. Listen to 
these:
    ``Water Wars Keep Rio Grande Dry.''
    ``Wyoming Ranchers Sue Coalbed Methane Developers.''
    ``Wolf Pack Still Killing Stock.''
    And then the next day in that same paper, ``Landowner Wants 
Wolves on His Place.''
    ``Nevadans Fight Bush on Nuclear Waste.''
    ``Montana Slaughters 21 Yellowstone National Park Bison.''
    ``Albuquerque's Growth Depends on Colorado's Water 
Project.''
    ``12-Year Montana Study Shows Roads, Logging Lower Number 
of Elk.''
    ``Western Governors Meet on Collaboration, Exclude 
Conservationists.''
    ``War Expected on Bush Proposal on National Monument 
Lands.''
    And finally, this headline: ``Motorized Users Creating 
Chaos on the Public's Land.''
    Now, to hear those headlines, one would suspect that we 
Rocky Mountain westerners have lost all commonness, one to the 
other; that we no longer have shared values. But it is not 
true.
    So I come here today a worried westerner, with a deep and 
visceral respect for the land, to ask you to let us help you to 
develop a framework for pilot projects to examine new 
approaches to public land collaboration, advisement, and 
management.
    Many of us are prepared to assist you in developing a 
legislative proposal, which I would call ``Region 7.'' As you 
know, there is no Region 7 in the Forest Service, so let's 
authorize one comprised of experimental, collaborative projects 
from localities and regions around the country.
    Let's create a competitive process for encouraging and 
receiving applications for local and regional collaborative 
efforts.
    These ideas and innovations must come from the locals up, 
and they must come from mature groups with proven records of 
collaborative success.
    Proposals for Region 7 would be chosen by a national group 
selected by the Congress and the President. Time does not 
permit details, but I have included a few in my submissions.
    There are many local opportunities. The Forest Service plan 
revisions are coming up. Some of those could likely be done 
through a collaborative process.
    There is restoration work galore in the Rocky Mountains. 
Old, abandoned mines, that continue to pollute the land and 
will for centuries, need to be cleaned up, and only this 
Congress can move to do it. And you could do it in some of the 
areas through collaborative processes.
    Both industry and conservationists agree some of the old 
roads can be taken out now. That is jobs on the land that would 
bring conservationists and workers together. You can do it 
through some collaborative processes.
    There is an old growth forests dilemma in Oregon, which 
some members on both your full Committee as well as in the 
Senate have some ideas about. That could lend itself to 
collaborative processes.
    This list could take all day, but let me close with this: 
My former colleagues, whatever you do, do not make things any 
worse. No legislative midnight slam-dunks. No end-run 
regulatory authorizing by the Forest Service. Be thoughtful, be 
cautious, and be inclusive. Don't give away the public's estate 
to small localities and regions. Don't risk the current system. 
Put in circuit-breakers. Keep the backstops up. And above all, 
don't fractionalize us, so that those of us who are 
euphemistically called locals are left to the strong winds of 
those local economic passions which local people can never 
resist.
    If we westerners are to recapture our confident sense of 
shared values, then we need public dialog that is more than a 
podium for political posturing and furtherance of division.
    We need help. And we think that a careful, cautious 
proposal done over time by this Subcommittee, full Committee, 
and then taken in the Senate, could get us this help.
    And, Members, a lot of us in the Rocky Mountain West are 
appreciative of this hearing and the fact that you have begun 
the process, which I personally hope will lead to Region 7.
    Thank you.
    [The prepared statement of Mr. Williams follows:]
DATE: April 23, 2002

TO: Members of the Subcommittee on Forests and Forest Health

FROM: Pat Williams (former Congressman--Montana 1979-1997 and a member 
of this subcommittee)

Colleagues,
    Thank you for inviting me to testify. Enclosed are:
    1. Lan outline of my 5 minute presentation;
    2. La legislative framework for testing new approaches entitled 
``Region Seven;''
    3. Lreflections on the McInnis-Udall letter to Chief Bosworth;
    4. Lgeneral suggestion for the framework of the competitive process 
for selecting the experimental models of ``Region Seven.''
                                 ______
                                 

                        Outline of Testimony of

                    Former Congressman Pat Williams

            To the Subcommittee on Forests and Forest Health

                         Committee on Resources

                             April 25, 2002

    A. LThe lay of the political and policy landscape in the Northern 
Rockies--easy living by people with fraying nerve endings.
    B. LCongress and the Federal public land agencies--help or 
hindrance?
         1. LA system, not broken but in need of repair.
         2. LAvoid, at all costs, making things worse.
    C. LRegion Seven
         1. LRetain ultimate authority with those who are the stewards 
        of these public lands--the Forest Service.
         2. LUtilize whatever authority necessary to create local/
        regional experimental projects in collaborative governance.
         3. LSelect proposals through a competitive process.
         4. LAccept current environmental laws as controlling.
         5. LAdopt or change regulations which would be unduly 
        burdensome to the models.
                                 ______
                                 
                              REGION SEVEN
   a legislative framework for testing new approaches to public land 
                              stewardship

                   Center for the Rocky Mountain West

                             April 25, 2002

Background
    The need to examine new approaches to public land management is 
steadily gaining broader recognition. Representative Scott McInnis in 
an oversight hearing before the Subcommittee on Forests and Forest 
Health this past December, referred to ``a decision-making apparatus 
that is on the verge of collapsing under its own weight.'' He echoed 
what former Secretary of the Interior Cecil Andrus had recently 
described as ``the tangled web of overlapping and often contradictory 
laws and regulations under which our Federal public lands are 
managed.'' In testimony before Congressman McInnis's subcommittee, 
Forest Service Chief Dale Bosworth referred to this phenomenon as 
``analysis paralysis.'' Increasingly, such concerns are leading to 
proposals for carefully chosen experiments in new approaches to 
managing public lands. Here are just a few recent proposals for such 
experimental approaches:
    <bullet> The U.S. Institute for Environmental Conflict Resolution, 
in response to a request from Senators Baucus, Crapo, Reid, and Thomas, 
has proposed pilot projects designed to test improvements in the 
implementation of NEPA through collaborative processes addressing 
Federal lands and natural resource management.
    <bullet> An October 2001 workshop on collaboration sponsored by 
the Claiborne Ortenberg Foundation and the Bolle Center for People and 
Forests proposed legislation to encourage alternative approaches to 
achieving the requirements of existing environmental laws, using 
collaborative strategies and pilot projects.
    <bullet> In 1998, the Center for the Rocky Mountain West, along 
with the Bolle Center for People and Forests and the Northern Lights 
Institute, convened a symposium at the University of Montana's Lubrecht 
Forest to discuss problems in the management of national forests. The 
group suggested the creation of a ``Region 7'' within the Forest 
Service'a non-geographic region that would allow a few national forests 
to serve as pilots to test ideas for collaborative governance 
structures and others mechanisms to provide regulatory flexibility.
    <bullet> The Forest Options Group has proposed the implementation 
of pilot projects to test new approaches to both the governing and 
budgetary structures of national forests.
    <bullet> The Idaho Federal Lands Task Force recently recommended 
the development of pilot projects to test new approaches to Federal 
land management. The proposed projects would seek to maintain and 
enhance environmental quality while creating opportunities for more 
effective public participation in resource management decisions.
    <bullet> The Valles Caldera Preservation Act, signed in July of 
2000, designated 89,000 acres in northern New Mexico as the Valles 
Caldera National Preserve, for which a unique public land management 
approach was developed. A diverse, nine-member Board of Trustees will 
manage the preserve.
    <bullet> Recently, the Bush administration announced a ``Charter 
Forest'' proposal as a response to the ongoing paralysis and gridlock 
on the National Forests. This proposal creates an opportunity for 
serious discussion about the problems of the current system and one 
possible way of dealing with these problems. The new plan calls for 
certain national forests or portions of them to be run on an 
experimental basis by such alternative governing structures as local 
trusts rather than the current management structure.
Need for Legislation
    While purely administrative initiatives can create some opportunity 
to test new approaches, there are severe limitations to how much of the 
problem agencies can address on their own. Bipartisan congressional 
support for experimentation would give the agencies clear authority and 
encouragement to test promising new approaches. The Valles Caldera 
legislation shows that Congress is willing to create new forms of 
governance over newly acquired Federal land. There are strong reasons 
to authorize agencies to test equally innovative approaches on existing 
Federal land.
Legislative Framework
    All of the proposals listed above contain elements that might 
contribute to a sound, legislatively authorized framework of 
experimentation. The challenge now is to combine the most promising 
features of these different approaches into a single framework.
    In a letter to Forest Service Chief Dale Bosworth, Representatives 
Scott McInnis and Tom Udall suggested the possibility of Congress 
authorizing what they called an ``open competition or request for 
proposals for pilots--from local groups or communities working with 
nearby national forests or ranger districts.'' They suggested that ``a 
carefully selected and well balanced advisory committee'' might play a 
significant role ``in selecting pilots and evaluating their success. 
Selection criteria might include the capacity of the pilot to produce 
meaningful lessons and useful information, as well as the breadth, 
balance and credibility of the group making the proposal.'' They 
suggested guidelines for the program, including pilots projects 
``created from the bottom up, not the top down,'' that a ``variety of 
approaches be tested,'' and that a ``credible mechanism'' of evaluation 
be adopted so the project will be useful for ``future policy 
development.''
    This approach is consistent with the suggestion outlined above for 
the creation of a new ``Region Seven'' within the Forest Service. 
Because of past regional consolidation, there has not been a Region 7 
in the National Forest System for several years. A newly created Region 
7 could be based on experimentation rather than geography. The Lubrecht 
Converstions described it as a ``virtual region'' that would contain 
pilot project and experimental forests chosen from across the system in 
a nation-wide competition.
    In order to learn as much as possible as quickly as possible, it is 
important to test a broad range of new approaches. The following list 
is not meant to prescribe the models that might be tested, but simply 
to suggest the possible range and variety of such models, which might 
include:
    <bullet> Trust Model--The public land in question would be managed 
by a board of trustees, pursuant to a binding trust instrument;
    <bullet> Budgetary Incentives--After some initial period of 
Federal budgetary support, the experimental area would be expected to 
generate most or all of its own funds;
    <bullet> Collaborative Governance Model--A collaborative group 
would be empowered to write and oversee implementation of a management 
plan for a national forest or BLM district;
    <bullet> Collaborative Planning Model--A collaborative body would 
write the management plan, while existing public land managers would be 
charged with implementing it.
    To encourage the development and careful testing of alternative 
approaches to public land management, the enabling legislation for 
Region Seven should:
    <bullet> Establish a national competition for selecting promising 
projects;
    <bullet> Establish an advisory committee to guide project 
selection and monitoring;
    <bullet> Emphasize the experimental, adaptive nature of projects;
    <bullet> Authorize and encourage projects across a range of 
administrative and geographic scales;
    <bullet> Authorize the appropriate Secretary to waive specific 
rules or regulations which in view of he objectives of the proposed 
experiment would be inappropriate or unduly burdensome;
    <bullet> Require monitoring of both process and outcome against 
established baselines;
    <bullet> Require a cumulative record of project activities and 
outcomes; and
    <bullet> Ensure broad dissemination of lessons learned.
    The value of such an experimental approach is that it does not 
attempt to change the entire public lands system but it does recognize 
problems and invites and tests innovative solutions in a few carefully 
chosen settings.
                                 ______
                                 

                 McInnis-Udall Letter to Chief Boswell

    One method of generating new pilot projects, presented in a letter 
from Representatives Tom Udall and Scott McInnis to Forest Service 
Chief Dale Bosworth in November of 2001, would be a Congressionally 
authorized open competition for proposals. Congress could also 
authorize the Chief to take a more active roll and solicit projects 
from local groups already working with national forests or ranger 
districts. An advisory board representing a broad spectrum of 
stakeholders would assist the Chief in selecting projects and 
evaluating their progress. Selections could be based on a project's 
ability to offer insight into alternative methods of management as well 
as how broad-based and balanced the stakeholder interests are in the 
group submitting the proposal.
    This method would encourage several important criteria for pilot 
projects:
    <bullet> they should be generated at a local level, not dictated 
by upper management;
    <bullet> they should offer the opportunity to experiment with a 
wide variety of management approaches; and
    <bullet> there must be a reliable method of evaluating the success 
or failure of each project and how lessons learned from the project can 
be applied to policy development.
                                 ______
                                 
 framework for the competitive process for selecting the experimental 
                       models of ``region seven''
Elements of the Competitive Framework
    1) LOptions to Develop Pilot Projects
        a) LProposals are submitted through an open, competitive 
        process.
        b) LProposals must be developed by inclusive groups that 
        represent all stakeholders, including public officials and 
        agencies.
        c) LThe groups or participants should have proven collaborative 
        experience, that is, ``organizational-collaborative maturity.''
    2) LOptions to Select Pilot Projects
        a) LThe National Oversight Committee on Pilot Projects (which 
        may include members of Congress, the Administration, and 
        organizations with an interest in Federal lands management; the 
        operating principle is to model an inclusive, informed, 
        deliberative--that is, collaborative--process).
        b) LA national advisory council on pilot projects that reviews 
        proposals and makes recommendations to the National Oversight 
        Committee on Pilot Projects for final selection.
        c) LThe Secretaries of Agriculture and Interior, in 
        consultation with western Governors (and legislatures).
    3) LOptions on Who Participates
        a) LRepresentation must be inclusive'that is, participants must 
        reflect the full range of interests and viewpoints on a given 
        project.
        b) LThe group must represent local, state, regional, and 
        national interests.
        c) LA certain percentage of participants must live in and 
        represent the local area (existing examples include Valles 
        Caldera and the Presidio).
    4) LOptions on Who Selects or Appoints Participants
        a) LParticipants are determined from the ground up, consistent 
        with 3(a). The final composition of any group is ratified by 
        the full group.
        b) LParticipants are determined from the ground up, consistent 
        with 3(a). The final composition of any group is ratified by 
        the national advisory council on pilot projects.
        c) LThe Governor and Secretaries of Agriculture and Interior 
        jointly appoint representatives according to some formula to 
        ensure balanced representation (existing examples include BLM 
        and U.S. Forest Service Resource Advisory Councils).
    5) LOptions on the Authority of the Participants
        a) LGovern'that is, to make and enforce decisions.
        b) LQualified Governance 1'that is, to make broad decisions 
        about the desired ends or outcomes of a pilot project, and then 
        allow Federal land managers and others to develop and implement 
        the appropriate means or strategies to achieve those ends.
        c) LQualified Governance 2'that is, to make and enforce 
        decisions; the agencies responsible for implementing the 
        decisions may appeal to the ``oversight committee'' and explain 
        why a particular decision cannot or should not be implemented.
        d) LAdvisory'that is, the participants advise the responsible 
        agencies on outcomes (ends) and strategies (means), but the 
        agency officials have final decision-making authority.
    6) LThe Scope and Purpose of Pilot Projects
        a) LThe overall scope and purpose of pilot projects is to 
        (these may become criteria for selecting pilot projects):
            i) LPromote sustainable communities.
            ii) LPromote sustainable landscapes.
            iii) LUtilize inclusive, informed, deliberative processes 
            for decision-making.
            iv) LProvide fair, effective, and efficient means to 
            resolve disputes or appeals to decisions that are made 
            under pilot projects.
        b) LThe scope and purpose of pilot projects should be 
        determined by the people and organizations submitting 
        proposals.
        c) LProposals should include a clearly articulated ``causal 
        theory,'' that is, a clear hypothesis and linkage between what 
        they are trying to achieve (the ends or outcomes) and how they 
        propose to achieve their desired results (the means or 
        strategies or activities).
    7) LOptions on Sideboards Within Which Pilot Projects Must Operate
        a) LPilot projects must comply with all existing laws and 
        policies.
        b) LPilot projects must comply with all existing laws, but are 
        exempt from administrative rules, regulations, and policies.
        c) LSame as (b), but participants may request an exemption from 
        an existing law, and permission may be granted by the National 
        Oversight Committee on Pilot Projects.
    8) LOptions on Who Can Appeal Decisions Made by Pilot Projects
        a) LAnyone.
        b) LOnly people who have formally participated in the decision-
        making process.
    9) LOptions on How to Resolve Appeals
        a) LUse a mandatory dispute resolution system that moves from 
        low-cost dispute resolution procedures to high-cost procedures:
            i) LNegotiation among appellants and pilot project 
            participants.
            ii) LMediation among appellants and pilot project 
            participants.
            iii) LBinding or non-binding arbitration.
            iv) LJudicial resolution in a court-of-law.
        b) LEliminate administrative appeals and, presumably, go 
        straight to court.
        c) LAppeal to the National Oversight Committee on Pilot 
        Projects.
        d) LAppeal to either the Secretary of Agriculture or the 
        Secretary of the Interior.
    10) LOptions to Monitor and Evaluate Pilot Projects
        a) LAnnual reports submitted to the National Oversight 
        Committee on Pilot Projects, based on the ``causal theory'' of 
        the pilot project.
        b) LAnnual or biennial meeting of pilot project participants to 
        exchange ideas, document lessons learned, and identify what 
        works, what doesn't, and why.
        c) LEvaluation of pilot projects by the General Accounting 
        Office after 3-5 years.
        d) LEvaluation of pilot projects by independent observers after 
        3-5 years.
                                 ______
                                 
    Mr. Simpson. Thank you, Mr. Williams. I appreciate your 
testimony.
    I now recognize Mr. O'Laughlin.

   STATEMENT OF DR. JAY O'LAUGHLIN, DIRECTOR, IDAHO FOREST, 
WILDLIFE AND RANGE POLICY ANALYSIS GROUP, PROFESSOR, DEPARTMENT 
   OF FOREST RESOURCES, UNIVERSITY OF IDAHO, AND SOCIETY OF 
                       AMERICAN FORESTERS

    Mr. O'Laughlin. Thank you, Mr. Chairman and members of the 
Committee. Thanks for the opportunity to be here today.
    People are frustrated about national forest management and 
many are asking for reform. The Society of American Foresters 
strongly supports a continued dialog on the subject of this 
hearing.
    Depending on their design, charter forests could break 
gridlock, move decisions closer to resources, manage resources 
sustainably, and restore trust in the Forest Service.
    The Chief of the Forest Service has described the agency as 
suffering from analysis paralysis. Others say it is bound by 
gridlock. However one characterizes the problem, decisions are 
far removed from the local units of the Forest Service, thus 
stifling innovation and initiative at the field level, where it 
is most needed. Perhaps charter forests can bring creative 
solutions back into the woods.
    People expect resources to be managed sustainably, but we 
cannot agree on what to sustain. Perhaps charter forests can 
help by including segments of the public in a different way at 
the national as well as local levels.
    The concept of charter forests will continue to evolve. But 
at this point, the Society of American Foresters feels a 
proposal should include a set of essential elements. I leave 
out the details and just mention those elements: location, 
initiation, public involvement, environmental laws, long-range 
plans, appeals, funding, outcome assessment, and reevaluation. 
All of these need careful consideration.
    The following discussion is based on my experiences in 
Idaho, working on pilot projects. These efforts are neither 
endorsed nor opposed by the Society of American Foresters.
    An attempt to establish pilot projects on Federal lands in 
Idaho started in 1996 with a Federal Lands Task Force. This 
still-evolving effort is fully supported by the State 
Government.
    I was a member of that task force. Six of the nine national 
forests supervisors in Idaho attended one or another of the 
meetings held around the State. At different times, three 
supervisors unexpectedly took me aside and stated off the 
record that they wanted to try to a pilot project on their 
forest.
    A working group in December 2000 identified five potential 
pilot projects in a report to the State Land Board titled, 
``Breaking the Gridlock.'' I have included in my testimony the 
Web site for that report.
    I have also provided four diagrams, illustrating how the 
current system could be modified with either a collaborative 
local advisory council or a trust model or a collaborative 
trust model with a local advisory council.
    The trust land management model offers features that 
promote sustainability to a degree that no other model does.
    These are all possible models for charter forests, but 
there are others as well. The SAF believes a range of 
possibilities will result in the best of tests about a more 
comprehensive reform.
    The five pilot projects identified in the Idaho report use 
a ecosystem-based approach to maintain and enhance 
environmental quality, to attain other land management goals 
and objectives, and to create opportunities for more effective 
public participation in resource management decisions through 
revised decisionmaking frameworks. All projects feature long-
range plans, environmental impact analyses, and public 
involvement.
    Descriptions of the Bush administration charter forests 
concept have the local trust entity as the key. Establishing a 
local trust entity with oversight functions for a charter 
forest could be approached two ways. First is a collaborative 
trust model proposed in the Idaho effort that would provide a 
structure capable of accommodating the desired functional 
objectives stated in the budget proposal. The second approach 
could be modeled after the two existing trusts for Federal 
land, the Presidio of the National Park Service and Valles 
Caldera.
    In closing, the words of former BLM director and Resources 
for the Future president, Dr. Marion Clawson, seem appropriate. 
He said, and I quote, ``I reject any idea that we today are 
less imaginative and resourceful than the men and women who 
pressed for the establishment of the national forests, the 
national parks, and the grazing districts. We, too, can 
innovate. Let us try.''
    Thank you.
    [The prepared statement of Mr. O'Laughlin follows:]

 Statement of Jay O'Laughlin, Ph.D., Director, Idaho Forest, Wildlife 
 and Range Policy Analysis Group, and Professor, Department of Forest 
 Resources, University of Idaho, representing the Society of American 
                               Foresters

    Mr. Chairman, and members of the Committee, my name is Jay 
O'Laughlin. I am a member of the Society of American Foresters (SAF) 
Committee on Forest Policy, and a Professor at the University of Idaho, 
where I am full-time Director of the Idaho Forest, Wildlife and Range 
Policy Analysis Group. The SAF is the national scientific and 
educational organization representing the forestry profession in the 
United States. Founded in 1900 by Gifford Pinchot, it is the largest 
professional society for foresters in the world. Throughout its more 
than 100-year history, SAF has advanced the science, education, 
technology, and practice of forestry. SAF is committed to maintaining 
the connection between environmental stewardship and the professional 
practitioner in the field.
    Thank you for the opportunity to be here. The letter of invitation 
said, ``The purpose of the hearing is to hear testimony on the concept 
of charter forests, and ... hearing about the projects you have been 
party to.''
    The Forest Service has been described as an organization struggling 
with decision ``gridlock,'' or ``analysis paralysis.'' Many public 
lands scholars have called for national forest reform. Some would 
change the statutes, others would change implementing regulations. 
Still others feel the current system may be too brittle, and call for 
experiments with alternative governance models (e.g., Kemmis, This 
Sovereign Land, 2001).
    The issues are controversial and there is no consensus as to how 
the current situation could be improved. One thing is clear: people are 
frustrated about national forest management, regardless of their 
positions on various issues, and many are asking for reform. The SAF 
recognizes that reform should not happen overnight and any change in 
the management system will require the involvement of a variety of 
interested and effected citizens. The point is not to institute reform 
today, but to begin to test what we have learned, and what we believe 
will lead to improvements in the difficult biophysical and social 
problems facing national forest managers.
    Congress has already chartered two experiments. One is limited 
authority for Stewardship Contracting, a program to facilitate 
innovative contracting mechanisms and community involvement. The other 
is authorization for the Quincy Library Group's project on three 
national forests in northern California. These experiments have common 
themes. The original proposals come from citizens frustrated with the 
lack of action on national forests, they involve citizens from a 
variety of philosophical perspectives in their implementation, they 
tinker at the margins of environmental laws, and they include a process 
for monitoring and assessing the efforts. We hope these general themes 
will be part of legislation that authorizes Charter Forests, and 
strongly support a continued dialogue on the subject.
The Potential of Charter Forests
    Depending on their design, Charter Forests could break gridlock, 
move decisions closer to resources, manage resources sustainably, and 
restore public trust in the Forest Service.
    The Chief of the Forest Service has described the agency as 
suffering from ``analysis paralysis''; others say it is bound by 
gridlock. However one characterizes the problem, decisions are far 
removed from the local units of the Forest Service, thus stifling 
innovation and initiative at the field level, where it is most needed. 
Perhaps Charter Forests can bring creative solutions back into the 
woods. In 1976, Senator Hubert H. Humphrey's goal, and the idea behind 
the National Forest Management Act, was to get forest management out of 
the courts. That hasn't happened.
    People expect resources to be managed sustainably, but we can't 
agree on what to sustain. Perhaps Charter Forests can help by including 
segments of the public in a different way, at the national as well as 
local levels. The SAF has defined sustainability in the forestry 
context as ``enhancing human well-being by using, developing, and 
protecting resources at a rate and in a manner that enables people to 
meet their current needs while also providing future generations with 
the means to meet their needs as well; it requires simultaneously 
meeting environmental, economic, and community aspirations.'' This 
definition may not work for everyone, but it is a starting point for 
meaningful dialogue. SAF members would like the opportunity to share 
the science, concepts, and experience we bring as professionals to a 
group of citizens interested in working on a Charter Forest, to help 
define the possible range of desired future conditions and identify the 
ways to get from here to there.
    Public trust in the Forest Service has eroded. We know anecdotally 
that many people trust local managers, but bristle when discussing any 
level of the agency higher than the Forest Supervisor's office. To earn 
trust back at the national level, the place to start is at the local 
level, with effective monitoring of conditions by local and national 
interests. Experiments with alternative models could begin to restore 
trust little by little, and build the basis for system-wide reform. We 
hope this is the vision for Charter Forests.
Essential Elements of Charter Forests
    The SAF recognizes that the concept of Charter Forests will evolve 
over the weeks and months ahead, as Congress holds hearings and 
possibly develops legislative proposals to implement some of these 
ideas. We will continue to learn and the SAF's concept and 
understanding of Charter Forests will continue to evolve. However, at 
this point a proposal on Charter Forests should focus on a set of 
essential elements, as follows:
    <bullet> Location. A limited number of Charter Forests from 
different regions across the National Forest System would be desirable.
    <bullet> Initiation. There should be a NEPA notice and comment 
period for each Charter Forest.
    <bullet> Public involvement. Charter Forest pilot projects should 
be collaborative in nature and involve citizens from a variety of 
philosophical perspectives in their implementation.
    <bullet> Environmental laws. Existing environmental laws should 
apply to all Charter Forests. However, there should be provisions for 
streamlining implementation process requirements of statutes, rules, 
and regulations as long as the fundamental objectives of the statute 
are met.
    <bullet> Long-range plans. The management of Charter Forests must 
be based on long-range plans.
    <bullet> Appeals. The Forest Service administrative appeals 
process needs creative streamlining. Citizens are accustomed to 
administrative review before seeking judicial review, but there are 
improvements to the process that could be tried, such as limiting who 
can appeal, and specifying time periods for review.
    <bullet> Funding. A sustained source of funding is essential for 
effective long-term resource management. The sources of funding for 
Charter Forests should be separate from the rest of the National Forest 
System budget.
    <bullet> Outcome assessment and reevaluation. Charter Forest 
projects should include a process for monitoring and assessing the 
efforts, and a national monitoring plan to assess the effectiveness and 
accountability of all projects.
Idaho Pilot Projects
    Introduction. The following discussion is based on my experiences 
in Idaho working on alternative models and pilot projects for national 
forest management. These efforts are neither endorsed nor opposed by 
the SAF. The testimony is based on three reports: History and Analysis 
of Federally Administered Lands in Idaho (Policy Analysis Group Report 
16, University of Idaho, 1998); New Approaches for Managing Federally 
Administered Lands in Idaho (Task Force Report, Idaho Department of 
Lands, 1998); and Breaking the Gridlock: Federal Land Pilot Projects in 
Idaho (Working Group Report, Idaho Department of Lands, 2000 [online]: 
<www2.state.id.us/lands/LandBoard/fltf.htm>.)
    Overview. An attempt to establish pilot projects on Federal lands 
in Idaho started in 1996 with a Federal Lands Task Force. This still-
evolving effort is fully supported by the state government. In 1998 the 
Task Force recommended pilot project tests based on three different 
models--cooperative, collaborative, and trust land management. I was a 
member of that Task Force. Six of the 9 national forest supervisors in 
Idaho attended one or another of the meetings held around the state. At 
different times three supervisors unexpectedly took me aside and stated 
off the record'they wanted to try a pilot project on their forest. In 
1999 a Working Group was charged with implementing the Task Force 
recommendations and in December 2000 identified five potential pilot 
projects in a report to the State Land Board titled Breaking the 
Gridlock.
    Context. A congressional bill in 1995 would have allowed states to 
take over BLM public lands. Although it did not pass, the bill 
stimulated interest. However, this approach has some drawbacks. 
According to a report by the Idaho state controller, if the state had 
to follow the same rules Federal land managers do, this would not be a 
good deal for Idaho.
    The Idaho effort began in 1996 when the legislature mandated that 
the State Board of Land Commissioners (Land Board) forge a closer 
cooperative relationship between the state and the U.S. Forest Service. 
This is important because 39% of the state of Idaho is National Forest 
System land; by comparison, Oregon is a distant second at 25%. Also 
important is that Idaho, Oregon, and Maine are the top three states 
dependent on the forest products industry for labor income.
    The 19-member Task Force was appointed and charged by the State 
Land Board to examine Federal land management issues and analyze 
alternative management methods. Two state legislators provided 
bipartisan leadership. I was appointed because my full-time job is 
directing a university-based natural resources policy analysis program 
created and funded by the legislature. In 1996 it was widely known we 
had begun work on a History and Analysis of Federally Administered 
Lands in Idaho, in which we analyzed ten alternative management 
approaches. Six of them would change the rules under which the Forest 
Service operates. One of them is trust land management.
    Attached are four diagrams from our University of Idaho policy 
analysis report on Federal lands illustrating how the current system 
(Figure 1) could be modified with either a collaborative local advisory 
council (Figure 2), or a trust model (Figure 3), or a collaborative 
trust model with a local advisory council (Figure 4).
    ``Trust'' has a dual meaning. A ``local trust entity'' may be able 
to restore public trust in the ability of Forest Service managers to 
provide the range of goods, services, and values people expect from our 
national forests. Managers can't do it alone. They need local support 
and national-level support from the range of interest groups active on 
national forest issues as well as from higher government authorities. 
This will not be easy. Gridlock feeds on ``adversarial legalism'' and 
breeds distrust among citizens (Kagan, Journal of Policy Analysis and 
Management, 1991).
    People disagree about what national forests should provide, as they 
always have. However, the current situation (Figure 1) does not provide 
a forum for these issues to be resolved. A formally authorized local 
advisory council, working hand in hand with the national forest 
manager, could provide meaningful public involvement in Forest Service 
decisions (Figure 2).
    The trust land management model (Figures 3 and 4) offers features 
that promote sustainability to a degree that no other model does--
prudence, clarity, accountability, enforceability, and perpetuity 
(Souder & Fairfax, State Trust Lands, 1996). These are possible models 
for Charter Forests, but there are others. The SAF believes a range of 
possibilities will result in the best set of tests about more 
comprehensive reform.
Idaho Federal Lands Task Force Process and Accomplishments
    The Task Force held 19 meetings around the state and heard stories 
about Federal land management from almost 200 people. The 1998 Task 
Force report identified part of the problem as a broken decision-making 
process:
        ``In the past three decades the delivery of goods and services, 
        as well as intangible and intrinsic values from Federal lands, 
        has not met the changing expectations of the public in general, 
        or Idaho citizens in particular. The demand placed on resources 
        on these lands has increased. Competing uses cannot be easily 
        accommodated and conflicts have escalated. Current processes 
        and laws used for the management of Federal lands fail to 
        satisfactorily resolve the inevitable competition for resources 
        from these lands, and set the stage for continued conflict. No 
        single group or interest seems to be satisfied with the present 
        situation. Increasingly, many Americans turn to the courts as 
        the forum for resolving disputes concerning Federal land 
        management. The evidence of current dissatisfaction with 
        Federal land management is the subject of disagreement among 
        interests, but includes:
        <bullet> Increasingly restricted recreational access,
        <bullet> Reduced roadless acreage,
        <bullet> Declining wildlife populations, particularly 
        threatened and endangered species,
        <bullet> Deteriorated water quality,
        <bullet> Reduced forest management including timber harvest,
        <bullet> Reduced availability of livestock forage, and
        <bullet> A cumbersome and lengthy decision-making process that 
        often results in gridlock.''
        ``Although there is disagreement regarding the priorities, the 
        current situation has affected Idaho through the 
        destabilization of communities, loss of jobs, loss of economic 
        return, and a decline in environmental quality.''
    The Task Force findings concluded that the current processes of 
Federal land management have resulted in uncertain decision making, 
destabilization of resource dependent communities, and deterioration in 
environmental quality on Federal lands. In short, the system is broken. 
Significant changes to these processes are necessary.
    The Task Force recommended that the Land Board pursue a pilot 
project testing one or more of the action alternatives for Federal land 
management, which are the cooperative, collaborative, and trust models. 
In the Working Group's Breaking the Gridlock report, five pilot 
projects were identified. Consistent with the Task Force 
recommendations, none of the projects involve state management, state 
control or state ownership of Federal land. In total, the five proposed 
pilot projects encompass 10.8 million acres of Federal land, of which 
10.1 million acres are National Forest System lands.
    Currently 20,476 acres (or 0.2%) of national forest lands in the 
proposed pilot project areas are subject to active forest ecosystem 
management each year. Based on ecological objectives identified by 
national forest managers, the pilot projects propose to double resource 
management activities. Compared to actual operating expenses in 1999, 
additional revenues from pilot project timber sales would improve cash 
flow by $30 million per year, from a net expense of $51.4 million to a 
net expense of $21.9 million.
    The five pilot projects identified in the Breaking the Gridlock 
report use an ecosystem-based approach to maintain and enhance 
environmental quality, to attain other land management goals and 
objectives, and to create opportunities for more effective public 
participation in resource management decisions through revised 
decision-making frameworks. All projects feature long-range plans, 
environmental impact analyses, and public involvement.
    The five proposed pilot projects are as follows:
    1) LCentral Idaho Ecosystem Trust (5.8 million acres). This project 
includes all of the Boise National Forest and parts of the Payette, 
Sawtooth and Salmon-Challis Forests. Using a ``trust law'' management 
framework, the goal of this project is to restore vegetation to desired 
ecological conditions while meeting social needs.
    2) LClearwater Basin Stewardship Collaboration (2.7 million acres). 
This project covers parts of the Clearwater and Nez Perce Forests and 
has as its goal using a ``collaborative group'' of stakeholders to 
accomplish the restoration of elk habitat and other indicator species 
consistent with social objectives and historical conditions.
    3) LPriest Lake Basin Cooperative (265,000 acres). This project 
includes all of the Priest Lake District of the Panhandle National 
Forest and has as its goal, under a Memorandum of Agreement involving 
the Forest Service and the Idaho Departments of Lands and Parks and 
Recreation, to restore and enhance ecological conditions and to improve 
resource management for wildlife, recreation and balanced economic 
uses.
    4) LSt. Joe Ecosystem Stewardship Project (726,000 acres). This 
project involves the St. Joe District of the Panhandle National Forest 
and proposes to use the stewardship contract approach to restore and 
enhance ecological conditions. The projects would be similar to those 
authorized by Congress in 1999.
    5) LTwin Falls/Cassia Resource Enhancement Trust. Forest Service 
lands in the Sawtooth National Forest and Bureau of Land Management 
lands in the Burley and Twin Falls management areas would be involved 
in a ``trust management'' approach aimed at sustainable economic 
activity and enhanced ecological conditions.
    All proposed projects would change the rules under which Federal 
land managers operate. The Task Force identified seven functional 
objectives. Each project approaches them differently, as detailed in 
the Breaking the Gridlock report:
    <bullet> Involve the public,
    <bullet> Streamline and localize decision-making,
    <bullet> Protect water quality,
    <bullet> Base management on formalized plans,
    <bullet> Protect species
    <bullet> Stabilize agency budgets, and
    <bullet> Stabilize communities.
    For example, the planning period would be reduced from 15 years to 
5 years, with one-year implementation plans that identify specific 
projects. The five-year plan requires an EIS, to be completed within 12 
months; the one-year plan requires an EA, to be completed within six 
months. Endangered species consultation is required only on the one-
year plan. There would be two levels of formal appeals prior to 
judicial review. The right to appeal decisions would be contingent upon 
constructive involvement in the public comment process.
    Some of these pilot projects are at a more advanced stage than 
others. The State of Idaho will continue to pursue the pilot project 
idea whether or not a Charter Forest is established there.
Trusts and Charter Forests
    Descriptions of the Bush Administration's Charter Forest concept 
appear in three different Fiscal Year 2003 Federal budget documents. In 
the White House's Office of Management and Budget proposal, the ``local 
trust entity'' is key:
        ``To overcome inertia and an excessive decision-making 
        structure, USDA will develop legislation in 2003 to establish 
        `charter forests.' This proposal would establish certain 
        forests or portions of forests as separate entities, outside 
        the Forest Service structure, that report to a local trust 
        entity for oversight. Like charter or magnet schools, this 
        proposed structure would avoid the central bureaucracy and 
        thereby reduce organizational inefficiencies, while emphasizing 
        local involvement, and focusing upon specific programmatic 
        goals, such as forest ecological restoration or hazardous fuels 
        reductions'' (p.67, emphasis added).
    The detailed OMB budget appendix for the USDA Forest Service 
repeats the two opening sentences above regarding the oversight 
function of a local trust entity, and then describes a pilot project 
structure with functional objectives for Charter Forests:
        ``The structure would eliminate inefficiencies and focus upon 
        specific strengths. Pilot forests would establish and address 
        land management objectives; comply with all Federal and State 
        environmental laws; include a diverse and balanced group of 
        stakeholders, as well as appropriate Federal, tribal, state, 
        county, and municipal government representatives in the design, 
        implementation, and monitoring of the project; incorporate 
        current scientific forest restoration information; and include 
        a multiparty assessment to identify both the existing 
        ecological condition of the proposed project area and the 
        desired future condition'' (p.181).
    The Forest Service's justification for its budget request 
introduced the idea of streamlining the decision-making process. 
Although the Forest Service does not specifically mention the local 
trust entity as such, the agency identifies its Valles Caldera Trust in 
New Mexico as a model:
        ``In an attempt to streamline the decision-making process, 
        legislation will be proposed to establish ``charter forests,'' 
        certain forests or parts of forests administered outside the 
        normal Forest Service structure. The goal is to eliminate 
        inefficiencies and focus upon specific strengths. Pilot forests 
        would: establish and address land management objectives; comply 
        with all Federal and State environmental laws; include a 
        diverse and balanced group of stakeholders, as well as 
        appropriate Federal, State, Tribal, county, and municipal 
        government representatives in the design, implementation, and 
        monitoring of the project; incorporate current scientific 
        forest restoration information; and include a multiparty 
        assessment to identify both the existing ecological condition 
        of the proposed project area and the desired future condition. 
        A similar arrangement currently exists in the Valles Caldera 
        Trust management of the Baca Ranch in New Mexico.''
    ``The legislation will require expedited endangered species 
consultation, enhanced use of grants and agreements, and enhanced 
authority to use National Forest System funds on and adjacent to 
national forests in cooperation with State, Tribal, and local 
governments. This concept may combine several national forests under a 
unified annual budget'' (p.1-10).
Trust Model Applications--The ``Local Trust Entity''
    Establishing a local trust entity with oversight functions for a 
Charter Forest could be approached two ways. One is through adaptation 
of the state trust land model, the other would be modeled after the 
Federal Government entities set up to manage the Baca Ranch (Valles 
Caldera) and the Presidio of San Francisco as ``trusts.''
    First, the collaborative trust model (Figure 4) in the Idaho effort 
would provide a structure capable of accommodating the desired 
functional objectives of a Charter Forest. This adaptation of the state 
trust land management concept is derived from trust law, whereby ``A 
trust is a fiduciary relationship in which the trustee holds and 
manages property for the benefit of a specific beneficiary. The major 
obligation of the trustee is to act with ``undivided loyalty'' to the 
beneficiary'' (Souder & Fairfax, State Trust Lands, 1996). Trust land 
management is our nation's oldest and most durable land management 
model. It is used on more than 15 million acres of private lands, and 
45 million acres of state lands outside Alaska. Many of the Idaho 
Federal Lands Task Force and Working Group members recognize that the 
trust land management model is perhaps the most desirable alternative 
model.
    Public involvement is a potential weakness of the trust land 
management model. It may be desirable to augment the trust model 
(Figure 3) with a ``local advisory council'' to assist the manager with 
public involvement, offer ``fix-it'' advice, and perhaps co-manage the 
NEPA process (Figure 4). The relationship of this council to the 
resource manger is crucial. On the one hand, problems would arise if 
and when the manager ignores the council's advice. On the other hand, 
problems would arise if the manager's authority is subordinate to the 
council. In either case, the dissension could be appealed to the board 
of trustees for a final decision. The five years of experiences of BLM 
Resource Advisory Councils, and the newly established Forest Service 
Resource Advisory Councils may offer some guidance on how the council 
could be structured to avoid such problems.
    The trust model is flexible, and accounts could be established to 
direct management resources to protect biological diversity, as desired 
by the fish and wildlife beneficiary, and cultural values, as desired 
by the park and recreation beneficiary (Figures 3 and 4).
    The second approach could be modeled after the two existing 
``trusts'' for Federal lands--Presidio and Valles Caldera. Both these 
entities were created as wholly-owned government corporations, 
established by law as executive agencies of the U.S. government. Unlike 
the application of trust law in the state land trust model, specific 
beneficiaries were not designated. However, the fiduciary concerns of a 
trust are evident, as goals for both entities include financial self-
sufficiency within 15 years. The Presidio Trust was established in 
1996. It is governed by a 7-member board of directors that oversees 
administration of the Presidio of San Francisco, a 1,480 acre unit of 
the Golden Gate Recreation Area of the National Park Service. The 
Valles Caldera Trust, established in 2000, is governed by a 9-member 
board of trustees that manages and administers the Valles Caldera 
National Preserve--an 89,000 acre working ranch formerly known as the 
Baca Ranch'' as a unit of the National Forest System.
Concerns about Charter Forests
    One concern about Charter Forests is how they might advantageously 
use an experimental or adaptive approach to land management. Adequate 
monitoring and reevaluation need some consideration. Initially I had 
the same concerns about Charter Forests that I had about the Idaho 
Federal Lands Task Force. In 1997 my reservations were satisfied when 
the Task Force adopted three principles: 1) the ownership of Federal 
lands will not be transferred to the states; 2) a variety of uses will 
continue on lands currently managed for multiple use; and 3) the public 
will be involved in the decision-making process. These principles are 
evident in the description of functional objectives for Charter Forests 
provided in the Federal budget documents quoted above.
    Another concern is that these Charter Forests could, by many, be 
considered a ``silver bullet'' to ``fix'' the Forest Service. While 
Charter Forests certainly may provide lessons and a basis for 
comprehensive reform they will not be applied everywhere on the 
national forests and may still get caught up in unforeseen delays. One 
need look no further than the Quincy Library Group to see an example of 
congressionally sanctioned management that has yet to implemented on 
the ground. Charter Forests will require that all interests in 
Washington, DC, as well as at the local level, have a voice in 
describing how these might work. Hopefully this will lead to scrutiny 
and probing questions rather than litigation and roadblocks.
Conclusion
    The letter of invitation stated, ``testimony will help [the 
committee] better understand the challenges and successes of on-the-
ground forest management as well as innovative approaches to community-
based land management'' (emphasis added).
    In closing, the words of former BLM director and Resources for the 
Future president Dr. Marion Clawson seem appropriate. He said, ``I 
reject any idea that we today are less imaginative and resourceful than 
men and women who pressed for the establishment of the national 
forests, national parks, and grazing districts. We too can innovate; 
let us try.''
                                 ______
                                 
    [Attachments to Mr. Williams' statement follow:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Simpson. Thank you for your testimony, Mr. O'Laughlin.
    Mr. Anderson, we will hear from you now.

  STATEMENT OF MICHAEL ANDERSON, SENIOR RESOURCE ANALYST, THE 
                       WILDERNESS SOCIETY

    Mr. Anderson. Thank you, Mr. Chairman.
    The Wilderness Society, like many other environmental 
organizations, is very skeptical of the Bush administration's 
proposal to establish charter forests. From all indications to 
us so far, charter forests would primarily aim to promote 
logging and other revenue-generating uses of the national 
forests, while weakening or eliminating environmental 
safeguards and public participation.
    A case in point is the Central Idaho Ecosystem Trust, one 
of the five pilot projects proposed by the Idaho Federal Lands 
Task Force. The goal of the trust would be ``to provide 
revenue, net of operating expenses, for the beneficiaries each 
year, generated in a manner that recognizes public values and 
is sustainable over the long term.''
    This kind of goal might sound fine to a private timberland 
corporation shareholder, but certainly not to the vast majority 
of Americans, whose paramount goals for the national forests 
are to provide high-quality water, wildlife habitat, high-
quality recreation, and wilderness.
    Regarding environmental laws and public participation, the 
Idaho task force proposal provides some alarming insights into 
how the administration might ``streamline'' decisionmaking and 
eliminate analysis paralysis in the national forests.
    In the central Idaho trust, the Forest Service would only 
have to prepare a single environmental assessment on a 
management plan once a year for all projects planned in the 
coming year. No further environmental review and public 
involvement would be required for projects, except for 
endangered species consultations and for projects not listed in 
the plan. Citizens could appeal the annual plans but not the 
timber sales or other management projects.
    At a minimum, these aspects of the Idaho plan would violate 
the National Environmental Policy Act and the Appeals Reform 
Act.
    An even more radical charter forest proposal is the 
Northwest Colorado Working Landscape Trust in Moffat County. 
The Colorado proposal goes so far as to prohibit Congress from 
designating new wilderness areas in the county and to release 
all existing wilderness study areas to management by the trust. 
It would also bar dissatisfied citizens from using the court 
system to challenge trust management actions.
    Mr. Chairman, turning national forests into charter forests 
to be managed by local boards for local interests is a 
fundamentally flawed idea that will never fly with the 
environmental community or the American public.
    This is not to say that there is no constructive role for 
collaboration or community-based partnerships in Federal land 
management.
    Last year The Wilderness Society and the National Audubon 
Society published a guide to collaboration for environmental 
advocates. I would like to submit this to the hearing record.
    Mr. Simpson. Without objection.
    [The guide referred to has been retained in the Committee's 
official files:]
    Mr. Anderson. I was a contributing editor to the guide.
    Environmentalists' experience with collaborative groups has 
been mixed, as are our views toward collaboration. Everybody 
agrees, though, that under no circumstances should 
collaboration be used to undercut existing law and 
environmental safeguards or to exclude legitimate interests.
    I have personally been involved in a promising 
collaborative effort in Lakeview, Oregon, for the past 3 years. 
Our collaborative group has worked closely and cooperatively 
with the Forest Service on restoring parts of the Fremont 
National Forest within the framework of existing Federal laws 
and management plans.
    I believe it would be a serious mistake for Congress or the 
administration to attempt to formalize community-based 
partnerships or collaborative efforts. Collaborative groups can 
function effectively and creatively as informal advisers to the 
Federal land managers, complementing rather than replacing 
public participation laws and processes.
    However, I do think there are several ways Congress and the 
administration can and should encourage the positive work of 
broad-based, inclusive collaborative groups.
    First, do not promote legislation on charter forests or 
collaborative processes, even on an experimental or pilot 
basis. Any effort to turn over control of Federal lands to 
local interests would be extremely divisive and polarizing. 
Such legislation or administrative initiative would inevitably 
lead to environmental boycotts of collaborative efforts and 
further gridlock of Federal land management.
    Second, additional funds should be appropriated for 
watershed restoration and monitoring projects. Restoration and 
monitoring of Federal lands traditionally have been hampered by 
severe shortage of funding. However, these are the very 
activities that hold the greatest promise for gaining broad-
based collaborative support.
    Third, funding is also needed to help collaborative groups 
operate effectively and to train local workers in restoration-
oriented job skills.
    Finally, funding should be provided to help with sharing of 
information amongst the collaborative organizations.
    In conclusion, The Wilderness Society strongly recommends 
that Congress and the administration steer clear of the charter 
forest concept. Instead, policymakers should focus on ways to 
help collaborative groups and Federal land managers succeed in 
putting people to work restoring the ecological integrity of 
public lands, for the benefit of all Americans.
    Thank you.
    [The prepared statement of Mr. Anderson follows:]

Statement of Michael Anderson, Senior Resource Analyst, The Wilderness 
                                Society

    The Wilderness Society appreciates this opportunity to testify on 
charter forests and collaborative projects. The Wilderness Society is a 
national environmental organization with 200,000 members and eight 
regional offices. Founded in 1935, The Wilderness Society works to 
protect America's wilderness and develop a nationwide network of 
wildlands through public education, scientific analysis, and advocacy. 
I have worked for The Society as a research analyst since 1985, 
primarily on national forest policy and planning issues.
Charter Forests
    Like many other environmental organizations, The Wilderness Society 
is very skeptical of the Bush administration's recent proposal in the 
Forest Service budget to establish charter forests. The administration 
has told us little about what charter forests are supposed to be--only 
that they will be controlled by ``local trust entities'' instead of the 
Forest Service, and that decision-making somehow will be 
``streamlined'' to overcome bureaucratic inertia. However, charter 
forest proposals have surfaced in a few places, providing some clues 
about where the administration is headed. From all indications, charter 
forests would aim to weaken or eliminate environmental safeguards and 
public participation, while promoting logging and other commodity uses 
of the national forests.
    A case in point is a proposal by the Idaho Federal Lands Task Force 
to create five pilot projects that would give local and state officials 
control over nearly half of Idaho's national forests. One of those 
pilots, the Central Idaho Ecosystem Trust, would cover 5.8 million 
acres, including all or parts of the Boise, Payette, Sawtooth, and 
Salmon-Challis National Forests. The goal of the trust would be ``to 
provide revenue, net of operating expenses, for the beneficiaries each 
year, generated in a manner that recognizes public values and is 
sustainable over the long term.'' This kind of goal might sound fine to 
a private timberland corporation shareholder, but certainly not to the 
vast majority of Americans, whose paramount goals for the national 
forests are to provide high-quality water, wildlife habitat, non-
motorized recreation, and wilderness.
    Idaho's charter forest proposal illustrates how fundamentally 
inconsistent the charter forest concept is with the laws governing the 
national forests. For example, the Multiple Use-Sustained Yield Act 
requires the Forest Service to manage the national forests to ``best 
meet the needs of the American people'' -- not to provide revenue for 
local trust beneficiaries. 16 U.S.C. Sec. 531(a). Similarly, the Forest 
and Rangeland Renewable Resources Planning Act defines the national 
forests as Federal lands ``united into a nationally significant system 
dedicated to the long-term benefit for present and future 
generations.'' 16 U.S.C. Sec. 1609(a). Establishing charter forests, on 
the other hand, would break apart the National Forest System, assigning 
responsibility for determining the goals, purposes, and management 
activities on the land to local interests.
    The Idaho Task Force proposal provides some alarming insight into 
how the administration would ``streamline'' decision-making and 
eliminate ``analysis paralysis'' in a charter forest. In the Central 
Idaho Ecosystem Trust, the Forest Service would only have to prepare a 
single environmental assessment on a management plan once a year for 
all projects planned in the coming year. No further environmental 
review and public involvement would be required for projects, except 
for interagency consultation on endangered species and for projects not 
listed in the annual plan. Citizens could appeal the annual plans, but 
not the timber sales or other management projects. This means there 
would be essentially no evaluation of site-specific environmental 
impacts or formal opportunity to comment on or appeal most logging and 
other management activities in the national forests of central Idaho, 
where some of the most erosion-prone lands in the nation are located. 
At a minimum, these aspects of the Idaho plan would violate the 
National Environmental Policy Act and the Appeals Reform Act.
    A key environmental concern about the state's proposal is that 
Idaho's national forests provide critical spawning habitat for salmon 
and steelhead that migrate through the Snake and Columbia Rivers to the 
Pacific Ocean. Those anadromous fish are vitally important to 
commercial and sport fishermen, the tourism industry, Indian tribes, 
and the general public in Oregon, Washington, and elsewhere, far beyond 
the Idaho border. Yet, the State of Idaho and local interests would 
presume to balance the salmon habitat protection interests of all 
Americans with the logging, grazing, and mining interests of local 
residents.
    The Idaho Trust's revenue-generating goal provides an incentive to 
liquidate natural assets (like big trees enhancing fish and wildlife 
habitat) to provide short term, one-time cash gains at the ecosystems' 
expense. Furthermore, while local residents would essentially take 
control of national forests in the Central Idaho Ecosystem Trust, the 
U.S. Treasury would still be expected to foot the bill for fire-
fighting costs and other ``landowner obligations.'' So much for the 
notion that charter forests would be a beneficial experiment in free-
market decision-making.
    An even more radical charter forest proposal has surfaced in Moffat 
County, Colorado. The Northwest Colorado Working Landscape Trust would 
be run by a seven-person board, all selected by the local county 
commissioners and the governor. The Trust would govern all Federal 
lands in the county, including national parks.
    The Colorado proposal is blatantly anti-wilderness and 
unconstitutional. It goes so far as to state, ``Congress shall not 
designate any new wilderness areas in Moffat County, and release all 
existing Wilderness Study Areas to management through the Trust.'' It 
would also bar dissatisfied citizens from using the court system to 
challenge Trust management actions.
    In addition to our objections to these specific proposals, The 
Wilderness Society also strongly disagrees with the underlying premise 
and political agenda espoused by some leading proponents of charter 
forests. For example, in his recent book This Sovereign Land, Dan 
Kemmis from the University of Montana argues for charter forest-style 
``pilot projects'' as the first step toward wholesale devolution of 
Federal public land management to local interests. Under such a scheme, 
national forests would become more like state and county forests, often 
run by local boards dominated by commercial interests and hostile to 
the environmental values of most Americans.
    The national forests are a cherished part of America's natural 
landscape and social fabric. Currently, the Forest Service must abide 
by various Federal laws, policies, and plans to protect fish habitat 
and other environmental values in all the national forests of Idaho, 
Colorado, and 42 other states. Since these are Federal public lands, 
the agency must consider the interests and concerns of all Americans, 
including future generations, in determining appropriate management. 
However, under a charter forest or trust arrangement, local interests 
and concerns would take priority, and non-local viewpoints inevitably 
would take a back seat. Turning national forests into charter forests 
to be managed by local boards for local interests is a fundamentally 
flawed idea that will never fly with the American people.
Collaborative Projects
    During the past decade, Federal land and resource management has 
increasingly been shaped by community-based partnerships and other 
collaborative groups. Recognizing the growing significance of and 
controversy about these groups, The Wilderness Society last year joined 
with the National Audubon Society and the University of Virginia's 
Institute for Environmental Negotiation in publishing a guide to 
collaboration for environmental advocates. I was a contributing editor 
of the guide.
    In reviewing environmentalists' experience with collaborative 
groups for this guide, we found that environmentalists' views toward 
collaboration are highly variable. Some people consider collaborative 
groups and processes to be inherently undemocratic, unaccountable, and 
contrary to the public interest. Others see collaboration as a way to 
build new alliances and accomplish environmental objectives that could 
not be accomplished otherwise. Nearly everyone agrees, though, that 
under no circumstances should collaboration be used to undercut 
existing law and environmental safeguards or exclude legitimate 
interests.
    We also found that even the best collaborative processes tend to be 
very time-consuming, as participants search for common ground and 
consensus. Some environmentalists question the value of devoting their 
energy and scarce resources to what may appear to them to be an 
unstructured and unending quagmire. In any event, collaboration is 
probably not the key to speeding up decisions, cutting red tape, or 
increasing efficiency in Federal land management. Existing public 
participation and planning processes--while often frustrating--at least 
are somewhat reliable and well understood.
    Mr. Chairman, in your invitation letter you asked me to describe 
the community-based projects in which I am involved. I have been a 
member of a promising collaborative effort in Lakeview, Oregon for the 
past three years. The Lakeview working group consists of 
representatives from the timber industry, schools, county government, 
and others in the local community, as well as regional and national 
environmental organizations. The impetus for the collaborative effort 
was the Forest Service's review of the Lakeview Federal Sustained Yield 
Unit (now called the Lakeview Federal Stewardship Unit) and the local 
community's desire to modernize and reauthorize the Unit. Our 
collaborative group works closely and cooperatively with the Forest 
Service on restoring parts of the Fremont National Forest, within the 
framework of existing Federal laws and management plans. I am not 
testifying today on behalf of the Lakeview working group, and my views 
do not necessarily reflect those of other members of the group.
    In general, I believe it would be a serious mistake for Congress or 
the administration to attempt to formalize community-based partnerships 
or collaborative efforts. Collaborative groups can function effectively 
and creatively as informal advisors to the Federal land managers, 
complementing--rather than replacing--public participation laws and 
processes. Collaborative groups need to be able to develop their own 
rules and procedures, based on their unique make-up. However, I think 
there are several ways Congress and the administration can and should 
encourage the positive work of broad-based, inclusive collaborative 
groups.
Recommendations
    First, do not promote legislation on charter forests or 
collaborative processes--even on an experimental or pilot basis. Any 
effort to turn over control of Federal lands to local interests would 
be extremely divisive and polarizing. Such legislation or 
administrative initiative would inevitably lead to environmental 
boycotts of collaborative efforts and further gridlock of Federal land 
management. The National Forest Management Act already provides 
adequate legal authority for the Forest Service to establish advisory 
committees, which may be appropriate in some situations.
    Second, additional funds should be appropriated for watershed 
restoration and monitoring projects. Restoration and monitoring of 
Federal lands traditionally have been hampered by severe shortage of 
funding. However, these activities hold the greatest promise for 
gaining broad-based collaborative support and energy. In Lakeview, we 
found that the Forest Service had planned many restoration projects but 
could not implement them due to lack of funds. Some money has become 
available for restoration and monitoring this year through the Federal 
county payments Title II program adopted by Congress in 2000, but more 
funds are needed to achieve on-the-ground results.
    Third, funding is also needed to help collaborative groups operate 
effectively and to train local workers in restoration-oriented job 
skills. The Lakeview collaboration has been facilitated by Sustainable 
Northwest, a non-profit organization headquartered in Portland, Oregon 
that provides resources and services to rural community-based 
partnerships. Lakeview community leaders recently formed a non-profit, 
called the Lake County Resources Initiative, to help local workers take 
advantage of opportunities in ecosystem restoration and community 
economic development. A competitive Federal grant program targeted at 
entities like these would certainly boost local collaborative efforts.
    Fourth, since collaborative stewardship is a relatively new and 
decentralized phenomenon, participants would benefit from better access 
to information about the efforts and experiences of other groups. 
Information-sharing can be accomplished through conferences, 
publications, and hearings (like this one). Funding for this purpose 
could be made through appropriations to Federal land agencies or grants 
to non-profits.
Conclusion
    The Wilderness Society strongly recommends that Congress and the 
administration steer clear of the charter forest concept. Instead, 
policy-makers should focus on ways to help collaborative groups and 
Federal land managers succeed in putting people to work restoring the 
ecological integrity of public lands, for the benefit of all Americans.
                                 ______
                                 
    Mr. Simpson. Thank you, Mr. Anderson. I appreciate your 
testimony.
    Dr. Garrett?

STATEMENT OF DR. L. DAVID GARRETT, EXECUTIVE DIRECTOR, NATIONAL 
FOREST COUNTY PARTNERSHIP RESTORATION PROGRAM, REPRESENTING CPR 
 MANAGING PARTNERS, COUNTY COMMISSIONERS AND FOREST SUPERVISORS

    Mr. Garrett. Thank you, Mr. Chairman, members of the 
Subcommittee.
    The partners and stakeholders of the County Partnership 
Restoration Program appreciate this opportunity to appear 
before and speak to what we feel is a progressive example of 
community-based land management under your proposed charter 
forests program.
    I am here today to represent the CPR managing partners. 
They are county commissioners and forest supervisors, who in 
turn represent the diverse local community stakeholder 
interests supporting our program.
    The pilot forest concept we will speak to today is a county 
government/national forest partnership, established to address 
critically needed forest restoration programs on three pilot 
national forests: the Apache-Sitgreaves in Arizona, the Lincoln 
in New Mexico, and the Grand Mesa, Uncompahgre and Gunnison in 
Colorado. The approach has broad program requirements, ranging 
from community stakeholder meetings and collaboration to 
extensive restoration.
    Communities and counties we represent are adjacent to the 
three pilot forests. These pilot forests are involved with over 
100 small cities, towns and villages. But the counties that we 
reside in are dominated by Federal lands; over 60 percent of 
the land base is Forest Service and other Federal lands. As 
such, all of our communities are directly impacted by 
management on these lands.
    This critically needed approach by the Committee is giving 
hope to small western communities, like the communities we 
represent. We feel that they feel they will now be valued. Your 
efforts will permit needed debate on how to best plan, 
structure, and program on community-based approaches can go 
forward.
    We wanted to support local community interests to reduce 
threats of wildfire and declining forest health. County 
governments have initiated the program and involved broad-based 
communities in the ongoing effort.
    The CPR Program, as we call it, grew out of extensive 
community-led forest research, demonstration, and planning 
programs. We have now developed those into some restoration 
efforts. These efforts have revealed that aggressive 
restoration will be needed across all of the forest areas that 
we represent.
    It became apparent to all three extended communities that 
their future and the futures of their communities and citizens 
revolve around the health and vitality of these forests. This 
requires development of many cooperative agreements and 
extensive collaboration cooperation with all sorts of community 
groups.
    A simple county-Federal partnership structure was needed in 
the program and developed, wherein specific responsibilities 
are assigned to differing entities. Seventeen county 
governments and three national forests are managing the 
partnership approach. Participating partners are Federal, 
state, tribal and community governments, who have formal 
authorities to take actions regarding health and welfare of 
their citizens and the resources on public lands. Participating 
community groups and individuals are the critical stakeholders, 
who we represent, who have explicit interest in the public 
lands and related goals that all of us seek.
    The lead partners, managing partners, are seeking the 
advice and assistance of expert organizations, such as the U.S. 
Institute for Environmental Conflict Resolution, to help us 
design the most appropriate approaches. County and Federal 
agencies have wide-ranging authorities that permit joint 
cooperation on budgets and programs. Additional agreements are 
needed, but, in major part, the county governments and the 
Federal collaborators and cooperators find this a ready, 
available program approach.Additional base funding is necessary 
because of the extensive restoration needs on these forests.
    The partners and stakeholders have endorsed a restoration 
program approach that will not require changes in the existing 
law; neither will it require changes in the current forest 
plans. We would like to explore ways of expediting NEPA and ESA 
requirements, but we wish to meet the full intent of these 
laws.
    The pilot forest presents an excellent arena to test and 
streamline administrative procedure. Definition of mission, 
goals, structure, and restoration program approaches are 
outlined in the documents we provided to you.
    The CPR communities have been very active for the over 5 
years in developing the information base on which they launched 
this program. We have over 200 involved stakeholders in our 
efforts. We have the support of the State Legislatures, the 
Governors, and congressional delegations in the states we 
operate in. The U.S. Fish and Wildlife Service is a strong 
supporter of our program approach.
    Our example of a pilot forest and its structure is 
primarily based on the specific desires of our communities and 
our stakeholders. We feel the Committee and Secretary should 
examine and hopefully implement several models.
    We do feel that several criteria are important to pursue: 
strong leadership in all program areas from local community, 
extensive community collaboration, commitment from local 
governments and the Federal Government to pursue this in the 
long term, and a commitment to use science in both the 
monitoring and the adaptive management approach.
    We are convinced that empowering local communities to have 
a greater role in public land management will produce wide-
ranging benefit to natural resources and to our citizens. In 
the case of our program, we believe it will be very effective 
in restoring the badly needed and seriously degraded lands of 
these forests.
    We have no reservations about evaluating differing charter 
or pilot forest concepts, and we urge the Committee to pursue 
those evaluations. The effort is permitting renewed debate on 
how best to incorporate local communities in the debate. 
Concepts that are not effective or acceptable will be revised 
or rejected by stakeholders. However, effective models, and we 
feel ours is an effective model, will prove to be very 
beneficial to our citizens and to our natural resources.
    We thank you for your time.
    [The prepared statement of Mr. Garrett follows:]

  Statement of Dr. L.D. Garrett, Executive Director, National Forest 
                 County Partnership Restoration Program

    Mr. Chairman and Honorable members of the U.S. House of 
Representatives subcommittee on Forests and Forest Health. The partners 
and stakeholders of the County Partnership Restoration Program (CPR 
Program) appreciate this opportunity to share information on what we 
feel is a progressive example of ``Community-Based Land Management'' 
under your proposed ``Charter Forest Program.''
    I am Lawrence Garrett, Executive Secretary for the National Forest 
County Partnership Restoration Program. I am here today to represent 
the CPR Managing Partners, County Commissioners and Forest Supervisors, 
who in turn represent the diverse local community stakeholder interests 
supporting our program.
    The Pilot Forest Concept we will speak to today is a County 
Government/National Forest Partnership, established to address 
critically needed forest watershed restoration management on three 
Pilot National Forests in Arizona, Colorado and New Mexico. The 
approach has broad program requirements, ranging from community 
collaboration and planning to implementation of extensive restoration 
projects.
    The communities and counties we represent are adjacent to the three 
pilot forests. Included are citizens and groups from seventeen counties 
and over 100 small cities, towns and villages. Our counties are 
dominated by Federal land, occupying over 65% of the land base. Much is 
USDA Forest Service land, totaling over seven million acres on the 
three forests. As such, all of our communities are directly impacted by 
management direction on these forests.
    We want to thank Chairman McInnis, Representative Udall and this 
Committee for pursuing examples of Community-Based Land Management 
under the Charter Forest Concept. This critically needed approach by 
the Committee is giving hope to small western communities, that you 
value their contributions. Your efforts will permit needed debate on 
how to best plan, structure and program community based forest 
restoration and management programs in cooperation with Federal 
agencies.
    Why did our CPR effort begin: We wanted to support local community 
interests to reduce threats of wildfire and declining forest watershed 
health, and maintain their traditional access to public lands. County 
governments have initiated this Program, because they have the primary 
government responsibility for issues of health, welfare and safety of 
their citizens and their property. And, in much of the rural west, 
these issues and Federal public land management are inseparable.
    How did the CPR effort begin: The CPR Program grew out of extensive 
community led forest restoration research, demonstration and planning 
programs, which have been developed cooperatively with the Forest 
Service and broad based agency and community groups. These efforts have 
revealed that aggressive restoration is a desired management 
alternative.
    It became apparent to all three extended communities, that their 
future would be significantly improved if they became pro-active and 
aggressively pursued restoration across the three forests. This 
requires development of formal cooperative programs with the local 
Forests, extensive collaboration of stakeholders, and complex planning 
for the needed restoration.
    What Structure is developed for the CPR Program: A simple county/
federal agency partnership structure is proposed, wherein specific 
responsibilities are assigned to differing entities. Seventeen county 
governments and three National Forests are managing partners for the 
program, and have the responsibility for general program management and 
funding. Participating partners are Federal, state, tribal and 
community governments who have formal authorities and responsibilities 
for the forests, watersheds, communities, people etc. Participating 
community groups and individuals are the critical stakeholders who have 
explicit interest in the public lands, and related goals of protection, 
management and use.
    The lead partners are seeking the advise and assistance of expert 
organizations, such as the U.S. Institute for Environmental Conflict 
Resolution to help design a sound structure and program to achieve 
partnership objectives.
    County and Federal agencies have wide ranging authorities that 
permit joint cooperation on budgets and programs. Additional agreements 
are necessary for the collaboration, science, economic development, 
information and education and other programs required to implement the 
extensive forest watershed restoration efforts. Additional base funding 
for the participating forests and counties is necessary to reach 
proposed goals.
    The partners and stakeholders have endorsed a restoration program 
approach that will not require changes in existing law, and that can be 
initiated under current Forest Plans. We would like to explore ways of 
expediting NEPA and ESA requirements, while fully meeting the intent of 
these laws. The Pilot Forest presents an excellent arena to test and 
streamline administrative procedure. Definition of mission, goals, 
structure, and restoration programs are contained in our formal CPR 
documents. The Pilot Forest Concept would allow local governments to 
act as conveners, while leaving the decisions to the responsible line 
officers of the three National Forests
    What are our accomplishments to date: The CPR communities have been 
very active for the past 2-5 years supporting many collaborative 
programs on forest restoration science, restoration workshops, and 
watershed restoration demonstration programs. For the past year the 
communities have been developing an extensive collaborative process to 
design the CPR Program for the three Pilot Forests and 17 county area. 
The three Forest CPR Program has involved over 200 local stakeholders 
in the approach. State legislatures, governors, congressional 
delegations, and critical Federal, state, tribal and local government 
agencies have endorsed the program. The U.S. Fish and Wildlife Service 
is a critical cooperator in our program. The CPR community groups are 
aggressively pursuing extensive cooperation and funding for needed 
collaboration, science, economic development, information and education 
and site restoration programs.
    How do we define a Charter/Pilot Forest: Our example of a Pilot 
Forest and its structure is primarily based on the specific desires of 
our stakeholders and restoration needs of our forests. We feel the 
Committee and Secretary should examine and hopefully implement several 
models.
    We do feel several criteria are important to make the ``Pilot'' or 
``Community Based'' Forest Concept successful as follows:
    1. LStrong leadership in all program areas from local community 
groups and governments.
    2. LExtensive community collaboration on all program elements.
    3. LCommitment from local and Federal Governments to short and long 
term program accomplishment.
    4. LA commitment to use science and monitoring to guide an adaptive 
management process.
    What do we believe a Charter/Pilot Forest can accomplish: We are 
convinced that empowering local communities to have a greater role in 
public land management will produce wide ranging benefit to natural 
resources on our public lands and human resources in our local 
communities. In the case of our CPR Program and with effective funding, 
we believe we can restore the most at risk acres of the three Pilot 
Forests over the next ten years.
    Do you have reservations about Charter/Pilot Forests: We have no 
reservations about evaluating differing Charter/Pilot Forest Concepts. 
The effort is permitting renewed debate on how best to incorporate 
local communities in public land management direction. We feel this 
debate is important to the future of public land resources. Concepts 
that are not effective or acceptable will be revised or rejected by 
stakeholders. However, effective models will prove to be very 
beneficial to society.
                                 ______
                                 
 overview of the national forest county partnership restoration (cpr) 
                                program
    The National Forest County Partnership Restoration Program is an 
innovative proposal to restore landscapes and watersheds to more 
desirable and sustainable conditions on three Pilot Forests; the 
Apache-Sitgreaves National Forests in Arizona, the Grand Mesa, 
Uncompahgre and Gunnison National Forests in Colorado and the Lincoln 
National Forest in New Mexico.
    The proposal promotes the co-lead partnership of the above three 
National Forests and seventeen counties in an effort to represent a 
diversity of landscapes, communities and issues, and to allow for a 
more thorough evaluation of the approach. Pilot designation will 
provide the flexibility in funding and authorities needed to support 
collaborative processes, integrate best available science, and expedite 
implementation of projects required to address the complexity of issues 
faced by forests and communities. The current planning and public 
involvement approaches are not addressing the complex and dynamic 
interrelationships between public lands and communities. Therefore, 
this project advocates a multidimensional, systematic approach.
    The National Forest County Partnership Restoration Program has been 
developed in response to the growing interest of local governments to 
be more meaningfully involved in defining future landscape conditions 
and appropriate actions to achieve desired outcomes. This proposal will 
address ecosystem decline, threats from wildfire and other factors 
contributing to ecological, social and economic impacts within the 
three Forests and surrounding areas.
    A community based collaborative process will be utilized to engage 
interested stakeholders including local, county and tribal 
representatives, and interest groups, as well as the Forest Service. 
This process will facilitate dialogue about the complex 
interrelationships between public land management and community 
sustainability. Critical linkages between natural resources and 
community values will be identified.
    Historic, current and possible future landscape conditions will be 
described in a setting that promotes mutual learning and understanding. 
The collaborative effort will identify a range of desirable, feasible 
and viable management options. Scientific assessments will describe 
ecological, social and economic components of the landscapes. Outcomes 
of the collaborative process will be integrated with the scientific 
assessments to formulate proposed actions that will be analyzed in full 
compliance with NEPA and other laws.
    The proposal responds to growing concerns of Congress, land 
managers, scientists, local communities and other stakeholders about 
the ecological decline on National Forests and the corresponding 
effects on local communities. The project's overarching objective is to 
improve the ecological, social and economic conditions in watersheds, 
landscapes and communities through an effective process that produces 
results on the ground.
                                 ______
                                 
         NATIONAL FOREST COUNTY PARTNERSHIP RESTORATION PROGRAM
                               the issue
    Since mid-century, forest specialists have noted the increasing 
departure of resources on western forest watersheds from normal ranges 
of variation. The dimensions of this extensive threat to western forest 
ecosystems is chronicled in the 1999 GAO Report, RC ED-99-65, A 
Cohesive Strategy to Address Catastrophic Wildfire, Threats and the 
Ten-Year Comprehensive Strategy.
    Science and management assessments have documented the extent and 
nature of impacts of resource departures on both biological and social 
systems. They have proposed methodologies for restoring forest 
watersheds, ecosystems and communities to healthy ranges of stability, 
productivity and diversity. Science and management demonstration 
programs for evaluating restoration methods have also been accomplished 
successfully in many locations.
    To date, the above programs have usually occurred on relatively 
small acreages of a single management unit of a single agency, 
preventing development of scientific, management and policy principles 
relative to large, multiple ownership forest landscapes. Many of these 
efforts have involved the cooperation of Federal, state and local 
agencies and interest groups, but they have not adequately tested the 
full dimension of local leadership and stewardship requirements, or 
succeeded in presenting opportunities needed for new Federal/local 
partnerships.
    The U.S. Congress called for progressive new Federal agency/local 
government forest restoration partnership programs, defined in the 
Fiscal Year 2001 Interior and Related Agencies Appropriations Act (P.L. 
106-291) as follows:
        ``The managers are very concerned that the agencies need to 
        work closely with the affected states, including Governors, 
        county officials and other citizens. Successful implementation 
        of this program will require close collaboration among citizens 
        and governments at all levels. The managers direct the 
        Secretaries to engage governments in a collaborative structure 
        to cooperatively develop a coordinated National ten-year 
        comprehensive strategy with the States as full partners in the 
        planning, decision-making, and implementation of the plan. Key 
        decisions should be made at local levels.''
    The Western Governors' Association, with strong county leadership, 
has provided continued national input on these and other western forest 
health issues. In August 2001, its membership submitted a ten-year 
comprehensive plan to the President: ``A Collaborative Approach for 
Reducing Wildland Fire Risks to Communities and the Environment.''
    Many members of Congress, including Senators Jon Kyl of Arizona and 
Pete Domenici of New Mexico, have supported increased science and 
management funding to aid in fire suppression and restoration programs, 
including the National Fire Plan. Also, Congressmen Scott McInnis of 
Colorado and Tom Udall of New Mexico have requested the U.S. Forest 
Service develop innovative Federal agency/local community partnerships, 
to insure effective and efficient resolve to issues such as forest 
restoration.
    County leadership on western public lands health and safety issues 
has become more prominent, especially in the last five years. In 
several states, counties have been working closely with interested 
publics and the Forest Service to develop a new collaborative 
partnership model to respond to the above congressional requests.
    This model ``The National Forest County Partnership Restoration 
Program'' proposes that a strong co-lead partnership of western 
counties and public land management agencies would afford several 
advantages in addressing the issue of forest restoration.
    <bullet> Whereas Federal, state and tribal land management 
agencies have responsibility for natural resource protection and 
management, counties are mandated to assure that the protection, 
health, safety, and welfare of its citizens and their properties are 
met at the local level.
    <bullet> County governments and programs are directed by elected 
officials, and are committed to serve all interests equally.
    <bullet> County governments operate at a localized project scale, 
which is most compatible with public land project administration on 
ranger districts, resource areas, etc.
    <bullet> Counties have extensive program responsibilities and 
authorities that permit them to be an effective contributing partner to 
most needs of Federal agencies.
    <bullet> County governments, like their Federal agency 
counterparts, are established to serve the needs of U.S. Citizens in 
perpetuity.
    <bullet> Where counties have taken a leadership role as active 
partners with Federal agencies, they have found their leadership very 
supportive in the following areas.
      * LBringing together diverse parties from agencies and local 
communities to define issues, opportunities and concerns regarding 
public land management direction.
      * LMediating disputes over alternative management directions and/
or options advanced by interested publics.
      * LSupporting funding needs of public agencies on critical 
natural resource issues.
      * LBlending important local economic and social needs and 
capabilities into the natural resource management direction.
      * LProviding local community partner services to public agency 
programs.
NATIONAL FOREST COUNTY PARTNERSHIP RESTORATION PROGRAMS FOR THE APACHE-
             SITGREAVES, GMUG, AND LINCOLN NATIONAL FORESTS
    As noted, county governments and associated National Forests in 
Arizona, Colorado and New Mexico have for several years pursued 
progressive demonstration programs for forest restoration and fire risk 
reduction. These programs have included collaboration of Federal, state 
and local agencies, local communities, Tribal Nations, universities, 
other interested groups and individuals.
    Examples of collaborative programs in Arizona and New Mexico are 
the Apache-Sitgreaves NF Blue Ridge Restoration Program and the Lincoln 
NF Pilot Forest Restoration Program. Working with their respective 
forests, community leaders have pioneered unique programs on forest 
restoration.
    Progressive new restoration program approaches are also being 
developed for the Uncompahgre Plateau area of the Grand Mesa, 
Uncompahgre and Gunnison (GMUG) National Forests in Colorado. 
Established from local community leadership, a Public Lands Partnership 
(PLP) is utilizing collaborative processes to advance improvements in 
forest restoration over multiple public land ownerships.
    Local community leaders and forest managers in the above three 
National Forest areas wish to embark on collaborative programs to meet 
the challenges of forest restoration of large multiple ownership public 
lands, across multiple counties. These efforts, when joined, create a 
powerful partnership strategy. This strategy can foster development of 
new approaches to forest restoration management as well as land 
management planning, and effectively transfer these advances to other 
land areas in the west.
    Each of the above programs has several unique qualities that are 
critical to moving them to a multi-county National Forest landscape.
    <bullet> Each National Forest and adjacent public lands are 
plagued with ongoing fire and insect and disease impacts. Current 
science evaluations reveal that over 60% of pine and mixed conifer 
stands on the Lincoln and Apache-Sitgreaves National Forests are in 
moderate to high risk conditions, and wildfire threats are at high risk 
levels across the forests. A 2002 overview assessment of Colorado 
forest conditions reveal extensive degradation. Studies of forest 
conditions on the GMUG National Forests are currently underway.
    <bullet> Each National Forest area has county officials and 
community leaders committed to implement and sustain support for large 
area restoration programs. This collaboration involves tribal, Federal, 
state, county and local government leaders; industry, agriculture, 
university and environmental interests; and a diversity of private 
interests.
    <bullet> Local leaders and forest staff have experience with 
diverse entities working together to both plan and implement urban-
interface and wildland forest restoration demonstration programs.
    Each of the above collaborative programs has also addressed 
specific needs for a forest level effort, as follows:
      * LScientific assessments of forest reference conditions and 
requirements for restoration, i.e., restoration alternatives, 
environmental assessments, socioeconomic impacts, treatment 
prescriptions, etc., and, adaptive management approaches using science 
to accelerate application of new knowledge.
      * LDesign of landscape level restoration programs to insure 
improvements in watershed health and ecosystem sustainability.
      * LDevelopment of forest based industry programs to accommodate 
small diameter low quality trees, and associated restoration materials.
    County governments, U.S. Forest Service managers, community 
leaders, universities and interested publics involved with the above 
Forest, are committed to establishing the proposed National Forest 
County Partnership Restoration (CPR) Program, specifically designed to 
advance forest restoration needs in the southwest and intermountain 
west regions.
    The partnership is proposed to be led by the following counties and 
forests: In Arizona Apache, Gila, Graham, Greenlee, and Navajo Counties 
and the Apache-Sitgreaves National Forests; in Colorado; Delta, 
Gunnison, Hinsdale, Mesa, Montrose, Ouray, Saguache, and San Miguel 
Counties and the GMUG National Forests; and in New Mexico; Chaves, 
Eddy, Lincoln, and Otero Counties and the Lincoln National Forest.
GUIDING PROTOCOL FOR PROPOSED NATIONAL FOREST CPR PROGRAMS FOR WESTERN 
                              PUBLIC LANDS
    The attached Addendum A provides program overviews of the three 
individual Forests that form the core of this National Forest County 
Partnership Restoration Program. Collaboration will expand to other 
Federal, state and tribal land areas as the program advances.
    The collaborators see significant benefit in strong interaction of 
the three forest area groups. Close interaction on all programs can 
advance community planning, technical and scientific forest management 
techniques, restoration practices, data management and analysis, 
emergency readiness, technology transfer, budget support, etc.
    The involved county leadership, participants and three forest 
management teams feel the following protocols are important for program 
success.
    <bullet> Two sets of co-lead partners are recognized as managing 
partners. They include representatives from 17 county governments and 
three National Forests. These managing partners have the responsibility 
to develop, manage and maintain the National Forest CPR Program, 
including funding requirements.
    <bullet> Involvement of many other partners is necessary, most 
specifically Federal, tribal and state agencies with natural resource 
management and regulatory authorities and responsibilities. They are 
critical ``participating partners'' in developing and implementing the 
diverse and complex restoration projects.
    <bullet> The partners must plan effective collaborative programs 
so that community leaders and all interested groups can assist in both 
developing and recommending alternative approaches.
    <bullet> The three National Forest/multi-county program is 
directed by a designated county/forest management team to assure 
program support and appropriate administration. Three representatives 
from county government (one from each state) and three representatives 
from the Pilot National Forests (one from each forest) will comprise 
the team. The team will appoint an Executive Secretary for program 
coordination.
    <bullet> County governments will provide leadership to develop new 
collaborative approaches which assure broad participation of interested 
parties, and establish focus groups and other approaches for 
identification of local issues, opportunities and concerns. They will 
also provide support to mitigate conflicts, streamline needed local 
government compliance review and cooperation, develop industry 
infrastructure, develop science and monitoring methods, and sustain 
financial and other support to forest restoration programs, local 
governance and community management needs.
    <bullet> The National Forests will execute their mission and 
remain responsible for management actions on Federal land. Adoption of 
the collaborative learning process (Daniels and Walker), or similar 
mechanisms will build understanding of commitment to and improvement of 
ecosystems by benefitting from a systems management approach on 
National Forests.
    <bullet> The process and programs will follow all natural resource 
and other laws governing access, equal rights, custom and culture, 
environmental protection, safety, health and welfare, etc. This 
includes embracing public land policies of multiple use forest 
management and sustainable management. Ecosystem restoration will be 
implemented to improve biophysical and socioeconomic systems in 
balance, and outcome opportunities are to be directed to all resources 
and resource users.
    <bullet> Forest restoration programs will be used, as appropriate, 
to enhance all ongoing forest programs, such as transportation, 
recreation, T&E species protection, water, wood fiber products, 
grazing, etc. Program focus includes reestablishing the diversity, 
productivity and stability of watershed ecosystems and rural socio-
economic systems. Forest restoration will blend into ongoing programs 
and not distort or divert these programs.
    <bullet> Aggressive site and landscape forest restoration will be 
implemented using state-of-the-art science and best management 
practices i.e., within site capability, forest plan direction, desired 
conditions, natural range of resource variability, etc. Establishment 
of reference conditions is a prerequisite to the restoration process. 
Adaptive management is used to accelerate the application of new 
knowledge.
    <bullet> Monitoring of biophysical and socioeconomic processes and 
multiresource status will use cost effective methods.
    <bullet> Improving and developing sustainable natural resource 
based economic infrastructure is a critical goal, including wood 
product, recreation, ranching, agriculture, and other related 
industries. Social and economic approaches should support existing 
custom and culture.
    <bullet> Engaging existing and new forest based industry in the 
collaborative process is to be given special emphasis in this program. 
In all practical cases, some portion of restoration costs are to be 
mitigated by private utilization of marketable products.
    <bullet> The three forest area County Partnership Restoration 
Program will develop and manage an information, education and 
technology transfer program to assure exchange of all developed 
information to public land managers in the greater southwest (i.e., 
Texas, Oklahoma, Colorado, Utah, Nevada, Arizona and New Mexico). A 
goal of this program is to develop a successful model that can be 
transferred to other forest and county partnerships.
                   SCHEDULE AND RESOURCE REQUIREMENTS
    The overall purpose of the Program is to implement, at an 
operational landscape scale, forest management activities that 
accomplish effective restoration of at risk watersheds on the three 
National Forests. Further, the program is designed to accomplish its 
objectives while transferring portions of annual program costs from the 
public sector to the private sector through product development. 
Currently insufficient markets exist for developed restoration 
materials. The program is designed to develop appropriate industry and 
markets, so that by year 6 a large portion of restoration costs are 
borne through the sale of developed restoration materials.
Schedule
    The program schedule has three critical phases for each forest as 
presented in the following tableau.








    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    It is critical that the program partners, and community leaders and 
interested publics, develop in phase I effective restoration plans that 
can restore all at risk watersheds over the 10 years of the program. 
Science and landscape assessments on the Lincoln and Apache-Sitgreaves 
National Forests indicate 15,000 to 30,000 acres will have to be 
restored each year to address forest areas of greatest risk. Studies 
are still in progress on the GMUG National Forests to help identify 
needed restoration.
    The effort must be guided by best science and management practices 
established in phase I, as well as ongoing administrative studies and 
monitoring. Market and industry development is necessary in phase I to 
permit utilization of restoration materials from the program. This 
effort will shift some portions of the restoration costs from the 
taxpayer to consumers of wood based products.
Budget Requirement
    Activities in the three program phases also guide budget 
requirements. In phase I annual supplemental budget requirements per 
forest are expected to be $1 million in year 1, $3.5 to 5 million per 
forest in years 2-5, with declining budget needs in years 6-10.
    To start the program in Fiscal Year 2002, $1 million per forest is 
requested by the partner Forests and Counties. These funds will be used 
by the Forests and Counties to design restoration plans, initiate the 
collaboration process, and conduct NEPA analysis and implement field 
treatments. Each Forest will have differing needs and expenditures.
    Table 1 presents projected annual budget allocations across general 
program categories for years 2-5. Actual proposed annual budget 
allocations for each Forest/County Pilot Program will be developed in 
each forest restoration plan. The total three forest CPR program 
supplemental budget is expected to average $12-$15 million per year in 
years 2-5.



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]





                               ADDENDUM A

                       PILOT FOREST DESCRIPTIONS

                        LINCOLN NATIONAL FOREST

                   APACHE-SITGREAVES NATIONAL FORESTS

         GRAND MESA, UNCOMPAHGRE AND GUNNISON NATIONAL FORESTS

                    COUNTY PARTNERSHIP RESTORATION:

                      LINCOLN NATIONAL FOREST, NM

Pilot Restoration Forest Area:
    Lincoln National Forest, BLM, Mescalero Apache and private lands; 
southeast New Mexico area. Forest vegetation; mixed conifer, pine, 
pinyon-juniper, desert shrub.
County Partners:
    Chaves, Eddy, Lincoln, Otero, and Counties.
Administration:
    1.1 million acres; three districts.
Primary Uses:
    Water, ranching, recreation, energy, wood products, snow skiing.
Forest Issues:
    <bullet> Over 60% of forest watersheds degraded.
    <bullet> 1994/2000 fires caused severe impacts to natural 
resources and social infrastructure.
    <bullet> On and offsite water in significant decline. Seeps, 
springs, instream flows degraded.
    <bullet> Understory flora and fauna diversity at low level
Proposed Programs:
    Collaborators propose 10 year two phase program. Phase I includes 
restoration of 150,000 acre Rio Penesco Demonstration Watershed, 
Sacramento District, as well as other selected high risk areas on both 
public and private lands (2002/04). Phase II includes extensive 
restoration of Forest Service and other public and private lands on and 
adjacent to the Sacramento, Ruidoso and Guadalupe Districts (2005-
2013). Area priorities to be established based on fire threats to 
health and safety of population, community threats and watershed 
resource threat. Both phases will incorporate aggressive technology 
transfer programs.
Leadership & Collaboration
    <bullet> Counties and a broad base of local community 
representatives have developed support restoration programs in science, 
information and education, planning, industry development etc.
    <bullet> Counties and community leaders have developed 
collaborative restoration programs with Federal agencies, i.e., USFS, 
NRCS, BOR, USF&WS, BLM; NM agencies for forestry, water, minerals & 
energy, and wildlife; local communities; local and regional interest 
groups; and the general public.
    <bullet> Counties have provided leadership and support in 
developing the Lincoln Pilot Forest Restoration Program.
    <bullet> Long term commitments are extended by the counties to 
provide leadership to the three forest County Partnership Restoration 
Program and the Lincoln Pilot Forest Restoration Program.
Accomplishments:
    <bullet> County leadership has helped organize the broad based 
collaborative group, Lincoln Forest Restoration Partnership.
    <bullet> Collaborative groups have developed over one million 
dollars in funding for research, information and education, forest 
restoration, social impact assessments and forest industry development.
    <bullet> Critical science needs including forest reference 
conditions, restoration prescriptions, social impact assessments, etc. 
have been funded by community leaders and conducted in cooperation with 
the USFS.
    <bullet> County leaders and cooperators have worked with 
counterparts in AZ and CO in development of the National Forest County 
Partnership Program.
Schedule:
    Proposed Phase I and II restoration programs are as follows:
    Phase I: Restoration of the 150,000 acre Rio Penesco Watershed and 
related at risk public and private lands.
    <bullet> Assessments/Planning/NEPA--2002-2003
    <bullet> Treatments--2002-2005
    <bullet> Monitoring & Adaptive Mgt.--2003-2005
    <bullet> Technology Transfer--2003-2005
    Phase II: Restoration of at risk public and private lands 
associated with three districts of Lincoln National Forest.
    <bullet> Assessments/Planning/NEPA--2003-2013
    <bullet> Treatments--2004-2013
    <bullet> Monitoring--2004-2013
    <bullet> Technology Transfer--2004-2013
Requirements:
    Three areas of program need are as follows:
    <bullet> Variance on established program objectives to accommodate 
new restoration program.
    <bullet> Administrative variance in areas of budget expenditures, 
NEPA process, cooperative programs, etc.
    <bullet> Annual budget increases of $3.5-5.0 million to accomplish 
restoration and technology transfer programs.
    <bullet> $1 million in Fiscal Year 2002 is needed to start the 
program.
                    county partnership restoration:
                 apache-sitgreaves national forests, az
Pilot Restoration Forest Area:
    Apache-Sitgreaves National Forests and other adjacent land 
ownership in eastern Arizona and western New Mexico. Forest vegetation; 
pine, spruce/fir, mixed conifer, pinyon-juniper, desert shrub.
Administration:
    2.0 million acres; five districts;
County Partners:
    Apache, Gila, Graham, Greenlee, and Navajo Counties.
Primary Uses:
    Water, recreation, wood products, fish and wildlife, ranching, 
cultural resources.
Forest Issues:
    <bullet> 60% of forest at high risk of loss to insect and disease 
and wildfire. Significant urban interface risk.
    <bullet> High biophysical and social resource losses to wildfire.
    <bullet> Significant wildlife impacts from overstory density and 
low understory plant productivity.
    <bullet> Decline of on and off-site water resource.
Local Leadership and Collaboration:
    <bullet> County partners, with the Eastern Arizona Counties 
Organization (ECO), the Natural Resource Working Group and other local 
community groups have provided strong leadership in developing 
collaborative restoration programs..
    <bullet> NRWG and other community groups represent broad based 
groups that include; Federal, state, local and tribal government; 
industry, environmental, and agricultural interests; university, 
community, rural, and private groups.
    <bullet> NRWG and other community groups have accomplished 
research, information and education, and management demonstration 
programs on restoration over the last five years.
    <bullet> The County partners, with ECO, have committed to a long-
term effort on the National Forest County Partnership Restoration 
Program.
Accomplishments:
    <bullet> County partners and the Eastern Arizona Counties 
Organization (ECO) have provided leadership to develop collaborative 
groups to support forest restoration, including the Natural Resource 
Working Group (NRWG), and biomass working groups in various 
communities.
    <bullet> The Natural Resource Working Group, a broad based natural 
resources action organization has operated restoration programs since 
1997, under a cooperative agreement signed by 10 Federal and state 
natural resource agencies, and the county partners.
    <bullet> The NRWG and ECO have developed over $2.5 million in 
funds for restoration science, information and education, demonstration 
and management programs.
Proposed Programs:
    The collaborators propose a ten year restoration program with three 
program thrusts operated concurrently. One involves urban interface 
restoration programs of 10,000 acres per year. The second thrust is a 
20,000 acre per year wildland restoration program. A third thrust is a 
three forest collaborative information and education and technology 
transfer program.
Schedule:
    Critical elements of the three program thrusts are active from 
2002-2013 as follows:
    <bullet> Assessments, Planning, NEPA--2002-2013
    <bullet> Treatments--2002-2013
    <bullet> Monitoring and Adaptive Management--2002-2013
    <bullet> Technology Transfer--2002-2013
Requirements:
    The proposed programs will have many requirements for success as 
follow:
    <bullet> $1 million in supplemental funds is needed in Fiscal Year 
2002 to start the program.
    <bullet> A restoration program funding allocation of $3.5 to $5.0 
million per year to accommodate primarily on the ground restoration of 
15,000-30,000 acres, information and education and technology transfer 
programs.
    <bullet> Some variance on other annual program targets may be 
necessary
    <bullet> Administrative variance in key areas of budgeting 
constraints, collaborative programming, NEPA processes, etc.
    county partnership restoration: gmug national forests, colorado
Forest Area:
    Grand Mesa, Uncompahgre, Gunnison National Forests (GMUG) and 
adjoining areas, comprise 2.9 million acres, and five Ranger Districts, 
with extensive interagency cooperative programs. The Forests influence 
11,000 square miles, 8 counties, and 57 communities with a population 
over 203,000.
County Partners:
    Delta, Gunnison, Hinsdale, Mesa, Montrose, Ouray, San Miguel, and 
Saguache Counties.
Vegetation:
    The Forests encompass a broad range of elevational gradients and 
ecological types from high cold desert shrub to alpine tundra. Most 
major Rocky Mountain vegetation types are represented in the geographic 
area, including extensive riparian zones.
Primary Uses:
    The Forests provide year-round recreation, livestock grazing, 
timber production, wildlife and fisheries, and water and energy 
development.
Forest Issues:
    <bullet> Increased tree densities and associated impacts to the 
understory vegetation results in declining forest health.
    <bullet> Extraordinarily high fuel loads and wildfire risk.
    <bullet> Severe woodland and shrub encroachment and noxious weed 
invasion.
    <bullet> Decline in mule deer population.
    <bullet> Increasing insect and disease and wildfire threats.
    <bullet> Declining watershed conditions and water yields within 
five major basins.
    <bullet> Negative social and economic effects on communities 
related to unpredictable flows in forest resources.
    <bullet> There is a need for integrated landscape-level analysis 
and complementary management across mixed land ownership.
Local Leadership and Collaboration:
    <bullet> The GMUG NFs have active partnerships with diverse 
stakeholder groups across the eight-county Forest area currently 
working on public land issues as they relate to local communities.
    <bullet> Examples of these diverse collaborative working groups 
include: the San Miguel Watershed Coalition; the Uncompahgre Plateau 
Project in coordination with Public Lands Partnership; the Gunnison 
Stakeholders Group on travel management; and the North Fork Coal 
Working Group.
    <bullet> Participants in the collaborative efforts include: 
related USDA (NRCS, USFS) and USDI (BLM) agencies; state agencies, 
including Colorado State Forest Service and Colorado Division of 
Wildlife; eight counties; local communities; and, special interest 
groups, such as environmental, industry, and agricultural groups, among 
others.
    <bullet> These collaborative efforts have led to several inclusive 
partnerships such as the 1.6 million acre Uncompahgre Plateau Project 
which involves such diverse stakeholders as BLM, Forest Service, 
Colorado Division of Wildlife, and the Public Lands Partnership.
    <bullet> The Forest has developed an innovative, community-based 
collaborative process, in five geographic areas of the Forest, where 
stakeholders will meet in Landscape Working Groups to identify a range 
of desirable, feasible and viable alternatives for the Forest Plan 
Revision process.
    <bullet> Information from these place-based collaborative working 
groups will be integrated with Landscape Assessments to help guide 
future project development as well as programmatic direction for the 
Forest.
Program Objectives:
    <bullet> Provide leadership to integrate collaborative restoration 
management approaches that address issues at watershed and landscape 
levels across multiple land ownerships.
    <bullet> Expedite implementation of projects that incorporate new 
science and information, including landscape assessment findings, 
advanced technology and collaborative process outcomes.
    <bullet> Improve the efficiency of the Forest Plan Revision 
process through the use of Landscape Working Groups and Landscape 
Assessments.
    <bullet> Streamline NEPA documentation to allow for expedited 
implementation of restoration projects.
    <bullet> Adapt management in response to cost effective monitoring 
results.
    <bullet> Utilize priority recommendations from the landscape 
assessments to guide planning for broad scale treatments that permit 
transfer of technology, information, and processes to other Forest 
units.
Schedule:
    The schedule for the phased programs over a 10-year period, 2002-
2013, is as follows:
    <bullet> Landscape assessments for the five discrete geographic 
areas on the Forest--2002-2004
    <bullet> Community-based collaborative Landscape Working Groups to 
provide input for restoration projects and the Forest Plan Revision--
2002-2004
    <bullet> Forest Plan Revision--2002-2005
    <bullet> Project/NEPA/community-based collaboration--2002-2013
    <bullet> Project implementation--2002-2013
    <bullet> Monitoring/information and education programs--2003-2013
Requirements:
    This extensive effort requires supplementary funding and flexible 
authorities.
    <bullet> At least $1 million of carry-over funds are needed in 
Fiscal Year 2002 to initiate program.
    <bullet> It is estimated that a supplemental $3.5 to $5.0 million 
will be required annually to accommodate the program.
    <bullet> Flexibility in authorities for administration, processes, 
procedures and budgeting is necessary for program implementation.
    <bullet> Integrate this program with economic development efforts 
that are examining opportunities to develop a more diverse wood 
products industry that includes: efficient small-diameter utilization; 
co-generation; and, advanced uses of wood fiber and wood residue.
                                 ______
                                 
    Mr. Duncan. [Presiding.] Thank you very much, Mr. Garrett.
    Next, we will hear from Mr. O'Toole.

  STATEMENT OF RANDAL O'TOOLE, SENIOR ECONOMIST, THE THOREAU 
                           INSTITUTE

    Mr. O'Toole. Thank you, Mr. Chairman.
    Mr. Chairman, 50 years ago, the Forest Service was widely 
considered to be an excellent organization. Not only did it 
make a profit, but Newsweek magazine observed that the Forest 
Service was so popular that Members of Congress would rather 
abuse their own mothers than say anything bad about the Forest 
Service. Newsweek magazine attributed the Forest Service's 
success to the fact that it was heavily decentralized.
    So what has happened between then and now? Well, tracing 
back, looking at the history of the Forest Service, we can see 
that incentives built into the Forest Service budget encouraged 
forest managers to lose money on timber and other resources 
rather than make money. It encouraged forest managers to 
clearcut when other cutting methods would have done just as 
well and would not have been as politically unpopular. And 
these budgetary incentives encouraged the Forest Service to 
build expensive, high-standard roads that had high 
environmental impacts, rather than use inexpensive, low-impact 
roads.
    These kinds of problems--clearcutting, expensive roads, and 
below-cost timber sales--led Congress to pass the Resources 
Planning Act and the National Forests Management Act to find a 
way to resolve these kinds of disputes.
    Unfortunately, these laws merely created even more 
incentives for members of the public to polarize over national 
forest issues. Well, in 1997--with the help of Doug Crandall, 
who at the time was working with the American Forest and Paper 
Association, and Andy Stahl, who still is working with the 
Forest Service Employees for Environmental Ethics--I pulled 
together about two dozen environmentalists, industry leaders, 
Forest Service officials, and other forest experts, in a group 
that called itself the Forest Options Group.
    This group agreed that the Forest Service today is broken, 
but we could not quite agree on how to fix it. There were a lot 
of proposals on the table. We had decided the best way to find 
out which way to fix the Forest Service was to experiment with 
some of these proposals.
    Now, the group's 1999 report is called ``The Second Century 
Report.'' I have copies that I can provide you, if you would 
like copies. There are copies also available online at 
www.ti.org/2c.html.
    Now, the group decided to experiment with some of these 
ideas, and we feel it is appropriate to experiment. Some people 
have suggested that we should not experiment with national 
forest resources, but in fact we have been experimenting for 
100 years with these national forests, experimenting with 
scientific management, experimenting with land-use planning, 
experimenting with management by court order. And these 
experiments have all largely failed, in most people's opinions.
    So what kinds of experiments did the Forest Options Group 
want to do? Well, we, first of all, agreed that we needed to 
get back to a decentralized system. But I want to distinguish 
between decentralization and local control. None of the people 
in the Forest Options Group advocated local control in the 
sense of turning forests over to local interests. Instead, we 
advocated decentralization in the sense that on-the-ground 
decisions must be made in response to on-the-ground conditions, 
not in response to whims that happen inside the Beltway, which 
might be thousands of miles from the national forests.
    So decentralization was No. 1. But beyond that, we felt 
that we needed new methods of governance to overcome the 
polarization problems, and new methods of public involvement. 
And second, we needed new methods of budgeting that gave the 
forest managers different incentives. Instead of incentives to 
lose money and clearcut, they should have incentives to make 
money and to take a wide variety of resources into account.
    So we talked about collaborative management, about which 
several other speakers have testified. But we also talked about 
two other fundamental ideas that should be experimented with.
    First of all, self-funding, funding forests out of their 
own revenues, rather than out of appropriations. Self-funding 
would give forest managers a completely different set of 
incentives, including incentives to not sell timber when it 
loses money or other resources when they lose money, and to 
consider the values of other resources that are marketed--
recreation, wildlife, even water can be marketed on some 
national forests.
    A second idea that we considered was trusts. And I want to 
emphasize that we were talking about fiduciary trusts. A 
fiduciary trust is a legal structure in the common law that is 
different than other people have talked about.
    For example, the Valles Caldera Trust and Presidio Trust 
are not true fiduciary trusts. In order to have a fiduciary 
trust, you need to have a beneficiary and you need to have 
other certain legal requirements. Neither the Valles Caldera 
Trust nor the Presidio Trust have a beneficiary, so they are 
not true fiduciary trusts.
    Once you have a true fiduciary trust, you have a completely 
different institutional structure and completely different 
legal standards that alter the incentives facing forest 
managers and also alter the incentives facing forest users, and 
hopefully it will help bring people together.
    Now, Dr. Sally Fairfax was on the Forest Options Group, and 
she helped us put together the idea of trusts, and she has also 
worked with me on another idea that we have developed since the 
Forest Options Group, and this is a friends of the forest idea. 
It is a new avenue of public involvement. Instead of being 
involved by writing letters to your national forest in response 
to an environmental impact statement, you would get involved by 
joining the ``Friends of the Grand Mesa Forest'' or the 
``Friends of the Bitterroot National Forest'' or whatever 
forest.
    Members of the friends of the forest would have a say in 
how the forest was managed. They would get to vote for some of 
the members of the board of trustees of that national forest, 
first of all. Second, they would monitor the forests, and each 
year publish a monitoring report on how well the forest is 
doing. And third, if they felt that the charter forest for that 
particular forest plan was not working, they could vote to 
terminate the forest and tell Congress, ``This is not working. 
Let's just pull the plug and go back to the old way.''
    So the friends of forest provides people with a new way of 
participating in forest management that we do not see today.
    In conclusion, I would like to say that I am sympathetic to 
some of the objections raised by Mr. Anderson of The Wilderness 
Society. There are potential hazards. It is significant that 
Mr. Anderson did not criticize any of the proposals raised by 
the Forest Options Group, because we feel that our proposals 
have overcome these hazards. We have put enough safeguards in 
to protect the national forests even as we try new ways of 
governance and budgeting. And I think Congress should encourage 
these new methods.
    Thank you very much.
    [The prepared statement of Mr. O'Toole follows:]

  Statement of Randal O'Toole, Senior Economist, The Thoreau Institute

    For more than thirty years, national forest management has been a 
source of controversy and community strife. Environmentalists have 
focused on clearcutting, below-cost timber sales, overgrazing, and road 
construction as causes of problems with fish and wildlife, water 
quality, recreation, and aesthetics. Resource users have focused on 
commodity outputs, forest health, community stability, and fire control 
problems.
    In 1997 I helped to bring together nearly two-dozen 
environmentalists, resource users, Forest Service officials, and forest 
experts to find a way to resolve these problems. The Forest Options 
Group, as the group called itself, agreed that national forest 
controversies stemmed from a variety of sources and noted that several 
solutions have been proposed to address these problems.
    The only way to find the correct solution or combination of 
solutions, the group agreed, was to test the proposals on selected 
national forests. In its 1999 final report, the Forest Options Group 
proposed testing various reforms on selected pilot forests on one or 
two forests each. The group's entire report can be read at http://
www.ti.erg/2c.html.
    Since the Bush administration endorsed the idea of pilot charter 
forests last February, most people have used the term charter forests. 
My testimony will use pilot forests and charter forests 
interchangeably.
    The Forest Options Group proposed five pilot proposals, but the 
group recognized that many variations are possible. The details of the 
five pilots are less important than the fundamental elements that went 
into those pilots.
    Collaborative management is one of those fundamental elements, and 
two of the five Forest Options Group pilots proposed to test variations 
of collaborative governance. But the group also urged that two other 
important ideas be tested: self funding and trusts.
    Self funding is based on research that I and other people did in 
the 1980s. My 1988 book, Reforming the Forest Service, shows that most 
if not all national forest controversies result from the incentives 
that face forest managers and users. Most of these incentives are 
derived from the Forest Service budgetary process.
    For example, the Knutson-Vandenberg (K-V) Act is a well-intentioned 
law that allows national forest managers to keep an unlimited share of 
timber receipts to spend on reforestation and, after 1976, other sale 
area improvements. This law has the unfortunate effect of rewarding 
forest managers who lose money on timber sales. It also promotes 
clearcutting when other cutting methods may be as effective and, from 
an aesthetic viewpoint, far superior.
    The law works this way. Sale preparation and road engineering costs 
are paid out of appropriations. In the 1980s these costs averaged about 
$50 per thousand board feet. If the Forest Service sold a timber sale 
for, say, $100 per thousand board feet, it would appear to earn a $50 
profit per thousand.
    In fact, managers can keep as much of the receipts as they need for 
reforestation and other activities, while the Treasury gets whatever 
revenues are left over. Managers soon come to regard any revenues 
turned over to the Treasury as losses because they lose control of 
those funds. So they arrange timber sales to maximize their budgets and 
minimize returns to the Treasury. This means that the Treasury often 
gets far less than the $50 per thousand it put up for the sale.
    The fact that the Washington, regional, and supervisors offices all 
get a share of K-V funds for overhead gives every level of the Forest 
Service hierarchy an incentive to lose money. Since Congress expanded 
the use of K-V funds to include wildlife, recreation, and other 
resources, non-timber resource experts bought into the K-V process in 
order to get funds for their activities. This resulted in a loss of 
critical perspective over timber sale design.
    For example, the K-V process favors clearcutting over other cutting 
methods because clearcutting imposes higher reforestation costs than 
shelterwood or selection cutting. A few forest types such as lodgepole 
pine do well with clearcutting. But most forest types, including 
Douglas-fir and ponderosa pine, would do just as well if not better 
with other cutting methods.
    In 1950, most national forests were proud that they did not use 
clearcutting because of its aesthetic and environmental costs. But by 
1970 the K-V fund had pushed most forests to adopt clearcutting as 
their major harvest method. The subsequent debate over clearcutting led 
Congress to pass RPA and NFMA.
    The K-V fund also influenced the debate over roads and roadless 
areas. While wilderness users regarded roads as an irreversible 
destruction of the resources they valued most, the Forest Service 
hastened to build roads as fast as possible because it feared that it 
would lose the option to earn K-V funds in the roadless areas. In 
effect, the K-V fund produced a strong bias in favor of overcutting and 
against any resource that conflicted with timber.
    The K-V fund is less important today because of lower timber sale 
levels, but the law is still on the books and this fund and other funds 
like it (salvage sale fund, brush disposal fund, road maintenance fund) 
still contribute more than $200 million a year to national forest 
budgets. This gives environmentalists good reasons to distrust any 
Forest Service pronouncements about the need to cut trees for forest 
health or any other purposes.
    Another perverse incentive comes from a law that has been repealed; 
yet it still influences national forest management. In 1908, Congress 
created the emergency fire suppression fund, which essentially gave the 
Forest Service a blank check for putting out wildfires. Wildfire expert 
Stephen Pyne writes that this fund ``gave the Forest Service power, and 
this power subtly corrupted the Forest Service.'' The 1920s and 1930s 
saw a vigorous debate both inside and outside the Forest Service over 
the value of prescribed burning and of letting natural wildfires burn 
in remote areas. As described in Ashley Schiff's 1961 book, Fire and 
Water, the fire suppression fund so biased the Forest Service against 
prescribed fire that it distorted its research results to support its 
view.
    Given unlimited funds, the Service set a goal of suppressing every 
fire by 10 am after the fire is detected. The agency often spent 
enormous resources and risked the lives of many firefighters to fight 
fires that, in retrospect, not only would have done little damage but 
would have maintained and improved forest health.
    Meanwhile, the agency campaigned hard against prescribed burning on 
private lands, often calling the people who did such burning 
``vandals.'' Today, we call them ``ecosystem managers'' or ``forest 
health specialists.''
    Congress repealed the emergency fire suppression fund in the 1980s, 
but it still reimburses the Forest Service after an expensive fire 
season. Although Forest Service officials today all agree that fires 
are a natural part of many forest ecosystems and that fire suppression 
has led to a decline in forest health, the agency still has an out-by-
10 o'clock mentality which contributed to the deaths of four Washington 
state firefighters who were assigned to put out a fire last summer in 
an area where planners had said that fires should be allowed to burn.
    Based on these and other observations, I concluded in Reforming the 
Forest Service that genuine reforms would happen only when budgetary 
incentives were changed. The best way to do this is to fund forests out 
of their own income rather than out of tax dollars. Funding out of 
fixed share of receipts would discourage below-cost activities and 
level the playing field between timber and other marketable resources 
such as recreation, fish and game, and even (depending on local water 
laws) water quality.
    The trust idea is based on research done by Professor Sally Fairfax 
and her colleagues at the University of California at Berkeley in the 
1980s and 1990s. Concerned that the debate over Federal land management 
focused on an overly narrow range of institutions, Dr. Fairfax studied 
state lands and found that they were often managed as fiduciary trusts. 
This structure is very different from the Federal land model and 
produces a very different set of outcomes.
    Many institutions may be called trusts, but they are not true 
fiduciary trusts unless they include all of the following elements:
    <bullet> A settlor, i.e., the creator of the trust;
    <bullet> A trust instrument that expresses the intent or goal of 
the trust;
    <bullet> A trust asset that is to be managed to meet the goal of 
the trust;
    <bullet> A trust beneficiary; and
    <bullet> A trustee or trustees.
    The Valles Caldera Trust, for example, has no specified 
beneficiary, and thus the courts would probably not interpret it to be 
a fiduciary trust. On the other hand, something that has the above 
elements would probably be interpreted as a trust even if the word 
``trust'' did not appear in its name.
    When a trust is established it invokes an enormous range of rules, 
defined over centuries in British common law and more recently in 
American common law, codified with some state-by-state variations, and 
which are enforceable in the courts. Among these rules is the principle 
of undivided loyalty, that is, that the trustee cannot divert trust 
resources to anyone but the beneficiary.
    The trustee is also held fully accountable for trust management 
and, in a sort of freedom-of-information act, must make trust records 
available to the beneficiary. Trust accountability is exactly the 
opposite of Federal land manager accountability. The Supreme Court 
gives deference to Federal land managers unless they clearly violate 
the law. But trust law assumes that trustees will be tempted to better 
themselves at the expense of beneficiaries and gives deference to 
beneficiaries who challenge trustee management, not to the trust 
managers.
    This transfer of deference from the managers to the beneficiaries 
can actually lead to less controversy and litigation as long as trust 
goals are clearly stated. The trust goal may be to maximize profits, 
recover an endangered species, or restore an historic site. The clarity 
of this goal combined with trust accountability should greatly reduce 
controversy and litigation.
    Trust law also requires the trustees of perpetual trusts (as 
national forests trusts would be) to always preserve the corpus of the 
trust. This turns out to be a stronger sustained yield requirement than 
the Federal Multiple-Use Sustained-Yield Act of 1960, which the courts 
say, ``breathes with discretion at every pore.''
    Once the trust is created, the settlor no longer has a say in trust 
management unless the trust instrument specifically provides a way for 
the settlor to terminate the trust. For national forests, this would 
depoliticize trust management. But it also means that Congress would 
need to include a way to terminate trusts if the trusts are deemed 
unsuccessful. I propose one such method below.
    The Forest Options Group developed a pilot forest that creatively 
uses trust law to manage and protect both marketable resources, such as 
timber and recreation, and non-marketable resources, such as many 
endangered species. The pilot or charter forest would be managed to 
produce maximum revenues for the beneficiary. To reinforce this goal, 
the forest would be funded out of its net receipts, thus giving 
managers an incentive to earn a profit.
    The beneficiary would be a second entity, perhaps itself a trust, 
whose goal is to maximize non-market stewardship values. The non-market 
trust would use the revenues from the forest trust, plus any other 
revenues it could produce from, say, foundations and donations, to give 
forest trust managers an incentive to produce non-market resources.
    The non-market trust could, for example, buy conservation easements 
on the forest or pay the forest to do certain forest health or 
ecosystem restoration projects. Separating the for-profit forest trust 
and the non-market trust ensures that trust managers have clear goals 
and do not face a conflict of interest when deciding how to manage the 
resources in their care.
    Dr. Fairfax and I are also concerned that existing public 
involvement processes create incentives for polarization. The forest 
planning process gives interest groups incentives to be as extreme in 
their views as possible for both fundraising purposes (since any group 
that fails to be extreme is portrayed as selling out) and to push the 
apparent center in their direction.
    Forest Service managers benefit from this polarization because it 
gives them maximum discretion to do what they want and still appear to 
be in the middle. The old saw that ``if everyone is unhappy I must be 
doing something right'' simply encourages managers to make everyone 
unhappy.
    Collaborative groups aim to find a method of public involvement 
that brings people together rather than drives them apart. Other 
methods of public involvement can also be considered.
    User fees provide an alternative form of public involvement. 
Instead of expressing your preference for a certain form of management 
by writing letters and filing appeals, you express your preferences by 
paying fees for the things you like. Anyone who has been to a 
supermarket lately can see how well this system works in providing an 
abundant diversity of goods and services.
    But user fees may not be entirely satisfactory in national forest 
management, when many resources are not marketable. To supplement fees, 
Sally and I have proposed the creation of ``friends of the forest'' 
groups for at least some pilot forests. You can find the details of 
this proposal, which Dr. Fairfax and I developed since the Forest 
Options Group published its report, at http://www.free-eco.org/rfp/pdf/
SF-ROT-U.pdf.
    Under our friends proposal, a friends of the forest group would 
monitor the pilot forest. Anyone could join the friends group by paying 
a nominal annual fee, such as ten or twenty dollars a year, thus 
insuring that the people who most care about a forest, no matter where 
they live, would have a say in forest management.
    The friends group would also have three important powers. First, it 
could elect some of the members of the pilot forest board of directors. 
Other members might be appointed by the secretary of agriculture or the 
governor of the state in which the forest is located, but having the 
friends group elect some members would give the directors a perspective 
that reflects the national, regional, and local interest in that 
forest.
    Second, the friends group would monitor pilot forest performance 
and publish an annual report on that performance. This would give the 
forest trustees a special incentive to pay attention to the concerns of 
the friends group.
    Third, if members of the friends group believed that the pilot was 
failing to do a good job of stewardship, a vote of the majority or 
supermajority of the group could recommend to Congress that the pilot 
be terminated. This would provide people with assurance that charter 
forests will not somehow get out of control.
    This would also be an excellent way for Congress to allow 
termination of trusts. Until the friends group votes to terminate a 
trust, Congress would keep its hands off. But if the trust fails to 
live up to expectations, the friends group could make its vote and 
Congress could terminate the trust.
    Friends groups could do additional things such as collect donations 
and use those funds to do worthwhile projects on the forest. But their 
most important jobs would be to elect board members, monitor the pilot, 
and be prepared to terminate the pilot if it fails.
    The friends group might an alternative to a collaborative board of 
directors. Otherwise, however, collaborative management, self funding, 
and trusts are three different but not mutually exclusive ideas. All 
three could be tested alone or together in various permutations. We 
could test collaborative trusts, self-funding collaborative management, 
or self-funding collaborative trusts.
    Some people have suggested that it is not appropriate to use a 
valuable public resource such as the national forests for such 
experimentation. But we have been experimenting with national forests 
ever since they were created.
    It was a great experiment to give the national forests to 
scientific foresters in 1905. This experiment seemed to be succeeding 
in the 1950s but seemed to be failing (probably because of budgetary 
incentives) by the 1970s. Congress then turned the forests over to the 
land-use planners, a huge experiment that clearly failed in the 1980s.
    In the 1990s the administration turned the forests over to wildlife 
biologists and other scientists, an experiment in progress that has not 
clearly failed but is not holding much promise. Outside forces are also 
experimenting with forest management by litigation and court order, an 
experiment that some would say is succeeding but most would not.
    It is foolish to conduct such experiments, one at a time, on the 
entire 192-million acre National Forest System. What the Forest Options 
Group recommends is a systematic program of testing various proposed 
reforms on one or two forests at a time so that the results of these 
experiments can be compared and, if successful, applied to other 
forests. Instead of conducting one experiment each generation, we can 
conduct dozens of experiments in a decade.
    To carry out these experiments, the Forest Options Group proposed 
several common features for all of the pilot forests.
    <bullet> The forests would be exempt from following Forest Service 
manual and handbook provisions and memo direction, but would still be 
required to obey all laws and regulations (with possible exemptions 
from FACA and other purely administrative laws).
    <bullet> All pilots would have open-bucket budgeting, meaning they 
would not have to deal with fifty to seventy-five different line items 
in their budgets.
    <bullet> All would nominally report to an Office of Pilot Projects 
(or, as some have called it, ``Region 7'') rather than to their 
geographic regional offices.
    <bullet> Most of the pilots would be allowed to charge a full 
range of user fees subject to valid existing rights.
    <bullet> Self-funding pilots would get seed money equal to 175 
percent of their recent annual budget and would be allowed to carry 
over unspent funds to future years. They would also enjoy a safety net 
equal to half of their recent budget.
    <bullet> Pilot forest tests would last for a minimum of five 
years, and even more time may be needed to truly determine the success 
of many tests.
    Although the Forest Options Group did not suggest it, I would 
suggest that the Forest Service create an expedited appeals process for 
the pilot forests. This would preserve the public's right to appeal 
forest decisions but give managers a rapid resolution to those appeals.
    The group realized that these ground rules alone represent 
significant changes that could themselves form a charter forest. But 
making these changes alone would fail to address the problems of 
accountability and incentives that led to the controversies and the 
creation of the existing Forest Service hierarchy, a lengthy Forest 
Service Manual, and a line-item budget. The rest of the Forest Options 
Group pilot proposals are aimed at addressing these problems.
    The Forest Options Group developed a detailed plan for selecting 
and implementing pilots that would encourage local forest managers and 
users to develop pilot proposals. The secretary of agriculture would 
select pilots in consultation with congressional delegations and state 
governors. Congress should encourage the secretary to select a full 
range of possible pilots.
    The name charter forests obviously calls to mind charter schools, 
and since charter schools are controversial this may be unfortunate. 
But I briefly reviewed the literature behind charter schools and 
educational reform in general and found some interesting parallels 
between educational reform and forest reform.
    School reformers agree that educational problems lie in overly 
centralized and regulated school systems, the lack of incentives for 
schools and teachers to do a good job, and funding problems. In Fixing 
Urban Schools, Paul Hill and Mary Beth Celio say that educational 
reform strategies must respond to each of these problems through 
deregulation/decentralization, new incentives, and new funding systems. 
This is almost precisely the findings of the Forest Options Group with 
respect to the national forests. Thus, the term charter forests 
accurately represents the goals of the Forest Options Group.
    In conclusion, Congress should give the secretary the authority to 
test a broad range of pilots. The Forest Options Group recognized that 
the Forest Service could test some pilots without specific 
Congressional authority. But the crucial idea of a fiduciary trust 
would require specific Congressional authorization, and Congress should 
give that authorization to the secretary while insuring that the trust 
can be terminated in some way if necessary. The group also felt that 
specific Congressional direction to test a broad range of charter 
forests might be needed to motivate the Forest Service to do so.
    Beyond authorization, Congress should require that the Forest 
Service test a full range of alternative pilots, and not just ones 
likely to increase a national forest's budget. Self-funded pilots are 
likely to have smaller budgets than pilots that keep both 
appropriations and user fees, so anyone proposing a pilot will be 
tempted to ask for both user fees and continued appropriations from 
Congress.
    We should accept for the possibility that there is no one-size-
fits-all solution to national forest ills. Collaborative management may 
work on some forests but not others. Self funding may be appropriate 
for many forests, but some may not be able to generate enough revenues 
for basic resource stewardship. Trusts may be appropriate in many 
cases, but not in others.
    National forests are complex systems, and if people say there are 
simple solutions to national forest problems, they are fooling 
themselves. To find out which tools work and where they work best, 
Congress should encourage the Forest Service to do as many experiments 
as possible.
    Finally, I would urge you to think about the distinction between 
decentralization and local control. Charter forests have been widely 
portrayed in the press and by opponents as turning control of national 
forests over to local residents. I don't know of a single pilot or 
charter forest advocate who wants to do this.
    Instead, supporters of collaborative management, self funding, and 
trusts all support decentralization. Decentralization does not mean 
local control. It means making decisions in response to local forest 
conditions as well as local, regional, and national values, and not in 
response to political whims that emerge from inside the beltway.
    The June 2, 1952, issue of Newsweek magazine featured Smokey the 
Bear on its cover. Noting that national forest management actually 
produced a profit in 1951, Newsweek called the Forest Service ``one of 
Uncle Sam's soundest and most businesslike investments'' and added, 
``Most congressmen would as soon abuse their own mothers as be unkind 
to the Forest Service.'' The magazine credited the agency's success, 
profitability, and popularity to the fact that it was decentralized. 
The centralization of the agency in the 1970s has played a key role in 
its failure since that time.
    On-the-ground national forest managers are greatly frustrated over 
their inability to get anything done. One district ranger told me that 
his entire permanent work force spends all its time fulfilling data 
requests from Washington, DC. Many of these managers are eager to try 
charter forest ideas, and I hope that Congress will give them that 
opportunity.
                                 ______
                                 
    Mr. Duncan. Thank you very much, Mr. O'Toole.
    Mr. Otter. Mr. Chairman?
    Mr. Duncan. Yes?
    Mr. Otter. Mr. Chairman, I would ask unanimous consent that 
the report referred to by the gentleman be put in the official 
record.
    Mr. Duncan. Without objection, that will be so ordered.
    [The report referred to has been retained in the 
Committee's official files and is also available online at 
www.ti.org/2c.html:]
    Mr. Duncan. Thank you very much, Mr. O'Toole.
    Mr. Thompson, it was previously announced that you would 
not testify. You have sat there politely listening to these 
other five gentlemen. Do you have any thoughts or comments that 
you would like to make before we proceed with the questions?
    Mr. Thompson. Thank you, Mr. Chairman.
    I would only say that I think, in listening to their 
testimony, the elements of importance have all been raised: 
collaboration, community, being responsive, trying to be 
innovative, looking at this proposal to have a dialog, and to 
try to determine collectively what is the best approach, and 
are there some things we can try to do differently than we have 
been able to figure out in other ways.
    And we certainly look forward to participating in this, and 
contributing and helping to frame something that works and 
makes good sense for the American public and the treasures that 
they have within their national forests system.
    We look forward to this dialog. It is a very important 
point in time, I think.
    Mr. Duncan. Well, very kind, inoffensive, middle-of-the-
road statement.
    [Laughter.]
    Thank you.
    We will go for first questions to Mr. Inslee.
    Mr. Inslee. Thank you.
    First I want to say how much we miss the eloquence of 
former Congressman Williams on this Committee and in the House. 
We really do miss it.
    But I want to alert the Committee members, there is some 
disturbing news when you judge his credibility. I learned 
yesterday that he is New York Yankees fan, and it is something 
that you should consider in considering his testimony.
    [Laughter.]
    I want to ask about the Lakeview project, and what I wanted 
to ask is how that would compare to what various proponents of 
these ideas would have for statutory changes and how that has 
progressed without statutory changes or rulemaking changes to 
that matter.
    Mr. Anderson. The Lakeview collaboration has not been 
handicapped by existing laws, in my opinion. The Fremont 
National Forest fortunately has a policy that is quite 
comparable to the goals of our collaborative group, which is 
primarily hydrologic restoration in the Fremont National 
Forest. And so we have really had no problems in terms of 
needing to have responsibility taken away from the forest 
supervisor and vested within our organization.
    The main problem that we have encountered is shifting from 
a timber production emphasis within the Fremont National Forest 
to a restoration emphasis. And that is a transition that the 
local community of Lakeview needs help with. The workers are 
unable to get the contracts, so they go outside of the 
community to more of the itinerant contractors in the region.
    So they need to be able to obtain the skills. They need to 
learn how to deal with these different kinds of contracts, when 
you have restoration work.
    The other problem is simply that the Forest Service needs 
the funding to do the restoration projects. They had a lot of 
restoration work on the Fremont that simply was sitting on the 
shelf because it was unfunded. Fortunately, in the last year, 
the county payments, resource advisory Committee funding, that 
Congress approved a couple of years ago, is starting to make 
more of those restoration projects possible.
    But certainly, if we are going really to do the job on 
restoration, it is going to take more. And I think there is a 
great deal of opportunity for collaboration to work and for 
restoration to happen in this area, with additional 
encouragement from Congress, primarily in terms of funding.
    But in terms of new legislation, I do not see it as a need. 
I am not familiar with the bill that you were talking about 
earlier that is, I think, focused on New Mexico, but it sounds 
like it could have some opportunities for broad applications in 
places like Lakeview or perhaps nationwide.
    Mr. Inslee. Mr. O'Toole, I was listening to your comments 
about decentralization. And as I understand it, your kind of 
thrust is that there is a general precept that you would allow 
local Forest Service managers to have move control of their own 
budget and would give them additional flexibility, I would 
assume, in trying to generate revenues from other than resource 
extraction. And I assume you mean recreational charges, and 
maybe there are charges for clean water. There are all kinds of 
assets that we now provide to the American people from Forest 
Service lands for which we do not charge a thing, including the 
production of clean water or open space, assisting in clean air 
efforts, and heretofore, until we had the ill-advised, in my 
view, fee system, the ability to recreate.
    Would this lead to, if we were going to go down that path, 
to increasing capture of that economic value, which means 
increasing charges to the American people for enjoying these 
national assets?
    Mr. O'Toole. Well, the Forest Options Group actually 
proposed five different pilots, and two of the pilots 
emphasized changing incentives in the way you talk about. Two 
of them dealt with collaborative groups, and a fifth pilot 
actually dealt with recreation fees in a special and unique 
way.
    But basically, for the self-funding forests, yes, we do 
envision that forests would be allowed to charge a wide range 
of fees. The reason for that is not because we want to charge 
the American people more money or double tax them. But we want 
to give forest managers a new set of incentives.
    Looking at the history of the Forest Service, it is clear 
that the Forest Service has emphasized timber because timber is 
the only resource that the Forest Service has been allowed to 
charge fair market value for and keep the receipts. And if you 
only let it keep the receipts from one resource, it is going to 
emphasize that resource. If you let it charge for a variety of 
resources, and keep a share of the receipts, not all the 
receipts but some of the receipts from those resources, it will 
want to do multiple use. You cannot have multiple use without 
multiple incentives.
    Now, we also proposed a number of other safeguards. We 
proposed that each of the charter forests would have to comply 
with all existing environmental laws and regulations and all 
other laws, with the possible exception of slight exemptions 
from FACA and special administrative laws, but that they would 
be exempt from dealing with the Forest Service manual, 
handbook, and memo provisions. We said they should have open-
bucket budgeting, so they did not have to deal with 50 to 75 
different line items, and they should be able to carry over 
funds from year to year, and so on and so forth.
    Now, our main goal is to see that a full range of charter 
forest ideas are adopted. And we agree with Mr. Anderson; many 
of these ideas could be done without new legislation. The trust 
idea could not be done without new legislation. And we felt 
that, if Congress did authorize the Forest Service to do 
charter forests and direct them to do a full range of charter 
forests, we would be better off than if we just relied on the 
Forest Service to do some forests within their limited 
authorization today.
    Mr. Duncan. Thank you very much, Mr. O'Toole.
    I will come back to Mr. Inslee in a few minutes, but now we 
need to go to Governor Otter for the questions he has.
    Mr. Otter. Thank you very much, Mr. Chairman.
    Mr. O'Toole, I am really interested in that process that 
you went through when you said you had a couple of dozen 
stakeholders that all represented different elements of 
interest in the forest, and that included the environmental 
community, that included certainly the Forest Service 
themselves. Am I right?
    Mr. O'Toole. Yes.
    Mr. Otter. And it also included the private sector?
    Mr. O'Toole. Yes.
    Mr. Otter. And from that, you generated the report that I 
think we just put in the record? Is that right?
    Mr. O'Toole. Yes.
    Mr. Otter. Have you read the Idaho Public Lands official 
report that they put out?
    Mr. O'Toole. Yes.
    Mr. Otter. And does that compare at all with your results?
    Mr. O'Toole. There are a lot of parallels. Some of their 
pilots are very close to some of our pilots. We did have one 
member in common, between the two groups. And both Dr. Fairfax 
and I did get a chance to talk to the Idaho group while they 
were doing their deliberations, so there was some cross-
semination going on there as well.
    If Congress does authorize charter forests, I would see the 
Idaho proposals as being some of the proposals that will be 
bubbling up from the ground as things that would be considered 
as potential charter forests.
    Mr. Otter. I see. I think there was an assessment in that 
report as well, or maybe it was an adjunct report, of what 
happens if we do nothing. Did you read that section of the 
report?
    Mr. O'Toole. Yes, and I think that there are serious 
problems if we do nothing. As I said, we have been 
experimenting with national forest management for 100 years, 
and it is pretty clear that the experiments that we have been 
doing have failed. And we have serious ecological problems in 
national forests. We have forest health and ecosystem problems. 
Fire is a major problem that we have not yet figured out how to 
deal with.
    Even though we all know that prescribed burning is 
necessary in some forests, the Forest Service still pretty much 
has an out by 10 o'clock mentality, meaning they suppress all 
fires instead of letting some burn.
    So if you look at the full range of what the Forest Service 
is doing, I see problems everywhere, and I want to see some of 
these experiments done on the ground to find out just which way 
is going to help us find our way out of these problems.
    Mr. Otter. We have not made, although we have requested, 
from this Subcommittee, an assessment of the environmental 
damage of the 880,000 acres that were burned in Idaho 3 years 
ago. And the question was, if we had gone in and implemented 
some of these management plans, or a management plan similar to 
that, would we have done a lot less environmental damage if we 
had gone in and thinned and actually gone through the process 
of thinning the forest out and indeed harvesting some of the 
forest to reduce the amount of basal load on the forest ground 
itself?
    But I suspect--and do you think my suspicion is correct or 
not?--that the environmental damage done by that fire and the 
resulting erosion and resulting siltation in our spawning beds 
for the salmon, and the contributaries to the Clearwater, the 
Snake and the Salmon, are probably going to be a lot worse off 
if we had managed that 880,000 acres under one of these 
programs than if we just let it burn?
    Mr. O'Toole. Well, I am sure there is some environmental 
damage, but I am especially concerned about the damage that is 
being done by continued fire suppression efforts. It would cost 
a lot of money to thin every single acre of the national forest 
system, but what we are doing now is spending enormous amounts 
of money--the typical thing is they spend $5 million to stop a 
fire because it is threatening a shack that costs $50,000. The 
Forest Service's goal is to prevent any damage to structures 
outside the forest, so they spend enormous amounts of money 
doing that, including doing backfires that end up extending the 
size of the fire to a much larger area.
    So the environmental damage of those fires is a short-run 
problem. The long-run problem is that we are not doing anything 
to prevent it in the future. And I think there are ways of 
preventing it, including letting some of these fires burn, as 
well as doing the thinnings, building the defensible fire 
perimeters, and maybe taking some of the fire fighters off the 
line, instead of putting their lives at risk.
    Mr. Otter. Couldn't we preselect those areas where we felt 
that fire was probably the best management plan? In Idaho, it 
is nothing to get 1,400 lightening strikes in a single night. 
And if we had areas that a fire started, and we had 
predetermined through a management plan that ``Let's just let 
that burn,'' but let's set up a defense where we do not want it 
to go, because I can tell you that 880,000 acres that burned in 
Idaho, especially in the overgrowth areas, where the basal 
measurement was well over 600 square feet per acre, that that 
has calcined the earth. And it has burned every possible growth 
producer right out of the soil, up to 16 to 18 inches deep.
    And I can also tell you that I have been on Slate Creek, 
which is a contributary to the St. Joe, and that fire went 
through there in 1912, and there are reaches in the Slate Creek 
drainage that there is nothing that grows yet today as a result 
of that fire and because of the overload of fuel that was 
available. And it calcined the earth there in 1912, and that is 
90 years ago, and there is still nothing growing in there.
    So I think part of the management plan that we are talking 
about, and part of the Idaho report suggested as much, that 
perhaps there are areas that were best left alone and just let 
them burn. But there other areas where we need to suppress.
    And my time is up. Thank you, Mr. Chairman.
    Mr. Duncan. Thank you very much, Governor Otter.
    Mr. Udall?
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    Mr. Williams, good to have you back here with us. We miss 
your bipartisan approach to things.
    You have made a case in your statement for why we need a 
new law in this particular area. And I am wondering, you look 
at some of the history here, and you see forest supervisors who 
are out there, who are trying to be creative and pull people 
together and build consensus, and then because of a political 
situation, either Members or Congress or others, they are 
removed from their jobs and building that consensus. So one 
argument could be made that this is a management problem and 
that you do not have the proper management and that you do not 
need a new law.
    Could you make the case for the Committee why you think 
there needs to be a new law to address the issues that are 
before us?
    Mr. Williams. Congressman Udall, I think that in a number 
of instances, some described by members of this panel and other 
instances with which the members of this Committee are 
familiar, there are a number of experiments, a number of 
models, a number of unique projects, going on throughout the 
public's land in this country, most of them collaborative 
efforts and many of them quite successful, some not. The groups 
just are not mature enough as collaborators to pull them off.
    It seems to me that those models now have been going on, to 
some degree or another, for a couple of decades. And I believe 
that the Congress could learn from those models, just as the 
Forest Service learns from those models, particularly those in 
which it involves itself.
    So I am saying to the Congress: Let's formalize a process 
to take advantage of not only that learning curve, but to 
encourage and permit through a competitive process some blue-
ribbon collaborative processes to gain the Congress's attention 
and, therefore, national recognition.
    The other reason is why I read out those headlines. We need 
some congressional encouragement and recognition of our 
difficulties out there, our frazzled nerve-endings, political 
nerve-endings. We need some recognition of the great transition 
that is going on, particularly in the Northern Rockies.
    The Northern Rockies, whether we like it or not, is in an 
inevitable transition from an extractive economy to an economy 
of conservation and restoration. It is an inevitable as that 
the sun will come up again tomorrow morning. And it has to do 
with world price and productivity and the end of the easy 
resource. And so we ought to take advantage of that fact by 
helping people get through the transition.
    Now, if I may, Mr. Udall, use your time to just say a word 
about what Congressman Otter said, and I am sorry that he had 
to leave.
    Our experience in Montana with regard to the fire is 
different than his, and I recognize that he has likely 
described his fire experience accurately. But ours if very 
different.
    We are just over the ridge from him, where we had a massive 
fire in and around what is called the Bitterroot Range. That 
fire burned wildly and destructively through areas that had 
been thinned and had been logged and had been roaded. And those 
fires were worse than his.
    And so it has more to do than just with this simplistic 
notion--and I do not say that derogatorily--with this 
simplistic notion that, ``Oh, if you just thin it out and 
vacuum the forest, you are not going to have fire.'' Fire is as 
inevitable as that economic transition going on in the Northern 
Rockies.
    Mr. Udall of New Mexico. Thank you. One of the parts of 
this that I think that you are saying and emphasizing is the 
idea that some of these management problems, we cannot get 
through them by letting Forest Service people just run the 
show. What you are saying is that if we had a bipartisan piece 
of legislation that told the Forest Service in a very direct 
way, ``We want you to experiment. We want the so-called Region 
7 to go out and look in a big way, in a competitive way, at 
doing this,'' that we would somehow sow the seeds for that kind 
of creativity and innovation, whereas today, we do not have 
that.
    Could you comment on that, what it is that we are lacking 
right now in this situation?
    Mr. Williams. Well, I would disagree with some that the 
system is broken. I do not believe it is, either the 
congressional system or the forest system.
    But you meet daily because you know that there is necessary 
of repair and amendment and change. The Forest Service is not a 
change-maker. Bureaucrats are not aligned to make change, to 
make new policy. That is your job. They are stuck with whatever 
you give them. And I disagree that their system is broken.
    But it does seem to me that because they do not make 
change, and the Congress is a little bit gridlocked in trying 
to find out how to make change on the public's land, we have 
created what might be seen as Gordian knots, where both 
industry people and environmentalists agree that there could be 
some solutions to local forest problems or local land use 
problems. But it is a Gordian legal knot.
    I think that the Congress, without lowering environmental 
standards, through this Region 7 concept or whatever concept 
you finally derive, could find a way to cut through those 
Gordian knots.
    Why should we have to open up NEPA to solve a single local 
problem? Why should we have to open up the Northwest Old Growth 
Forest Act just to figure out how to solve an old growth forest 
problem in a couple of counties in the Pacific Northwest?
    We could use these pilot projects as ways to untie those 
knots without having to open up major acts. And it would seem 
to me that a master group that chose among competitive models 
could give priority to some of these areas that have these 
Gordian knots, and use experiments to get them untied.
    Mr. Udall of New Mexico. Thank you.
    And thank you, Mr. Chairman.
    Mr. Duncan. Thank you, Mr. Udall.
    I understand Mr. Thune has a statement at this time.
    Mr. Thune. Thank you, Mr. Chairman. I appreciate you 
allowing me to be here today. I am not a member of this 
important Committee, but this is an issue which is of great 
importance to my constituents. In fact, my constituents 
continue to be frustrated by the current decisionmaking 
gridlock that exists in the Forest Service and especially as it 
pertains to the Black Hills National Forest.
    Unfortunately, because of the gridlock, Forest Service 
employees have had their hands tied and have not been able to 
effectively manage forest health and fire prevention. And as a 
result of that, there are two areas in the Black Hills National 
Forest that are at very high risk of wildfires during the 
coming fire season, putting public safety and private property 
at risk.
    In South Dakota, the Forest Service has been working for 7 
years to complete a 10-year forest management plan for the 
Black Hills National Forest, and they are currently working on 
the phase 2 amendment of this plan and were supposed to finish 
the plan this year. When my constituents came to me frustrated 
after learning that phase 2 was not going to be finished until 
late 2004, I decided to find a solution. And I am working, 
trying to find funds to contract the work needed to complete 
the plan in a more timely way.
    That is why I am very excited to see this concept 
introduced by this Committee. I think it is a common-sense idea 
that local officials and citizens can provide assistance and 
ideas to the management of the national forests. In my 
judgment, that is something that is long overdue.
    Clearly, the people on the ground in the communities who 
use the forests for recreation or business know how to best 
utilize those forests. And in fact, Mr. Chairman, I wrote a 
letter to this Committee earlier this year, urging the 
Committee to move forward with legislation that would create a 
charter forest within the United States Forest Service and I 
want to lend any support I can to you in moving this proposal 
forward, and furthermore would say that I believe the Black 
Hills National Forest would be an excellent choice to be 
considered as one of the first charter forests.
    I am a longtime believer in enhancing local control of 
public lands. Mr. Chairman, I encourage you and this Committee 
to create a locally driven trust to mange the Black Hills 
National Forest, consisting in part of Federal land and 
resource managers, local officials, and other private 
stakeholders. I believe that local involvement will create a 
decisionmaking process that is driven more by results and less 
by the process itself.
    So as this moves forward, I just urge you to continue to 
develop this concept, put forward legislation, and, as I said 
earlier, the Black Hills National Forests, we are ready, 
willing, and anxious for a change, because the current system 
is not working. And this year we are at terrible risk of fire. 
Something just has to be done. This is more of a long-term 
solution. We also need a short-term solution this year.
    But I appreciate the work the Committee is doing in trying 
to address many of the problems that we are facing. This is 
something that is of incredible importance to the people in 
South Dakota.
    So thank you again, Mr. Chairman. I appreciate the panel 
today and their testimony as well.
    Mr. Duncan. Thank you very much, Mr. Thune.
    We do have three votes going on, on the floor. Let me just 
say a couple of things.
    I have mentioned in here before that in my home area of 
east Tennessee, I was told that in 1978 we have 157 small coal 
companies, and now we have none. I have read the same thing 
about logging communities out West being devastated and small- 
and medium-size logging companies being run out of business. It 
seems that when we overregulate in certain areas, first the 
small companies go under, then the medium-sized companies, and 
then we end up with only a few big giants controlling or 
dominating any industry.
    I read an article praising the previous administration for 
locking up 213 trillion cubic feet of natural gas, and then we 
have just gone through a battle over ANWR. It seems that are 
groups that protest any time we want to dig for any coal or cut 
any trees or produce any natural gas or drill for any oil.
    I remember when one of those last coal companies was 
closing down, I came back from lunch in Knoxville 1 day, and I 
saw 125 miners out in front of the Federal regulatory office 
there, demonstrating shortly before Christmas, saying, ``Please 
let us work.''
    And I can tell you that my grandparents had 10 kids and an 
outhouse and not much more. And they had almost no money. And 
they had a small 25-acre farm in the heart of Appalachia, in 
Scott County, Tennessee. And it seems to me that many of these, 
as I have called them, environmental extremists come from very 
wealthy families. And I am not sure that they understand how 
much they hurt the poor and the lower income and the working 
people in this country. And I realize that the environmental 
groups have done many good things. But I was told in this 
Committee 3 years ago or 2 years ago, that in the mid-1980's or 
early 1980's we passed a law in the Congress that the 
environmental groups wanted, saying we would not cut more than 
80 percent of the new growth in the national forests. Now we 
are cutting less than one-seventh of then new growth.
    We cannot shut down the whole country. We have to somehow 
protect the environment, but we also have to preserve jobs for 
working people in this country.
    And we always hear, ``Go to tourism.'' I don't believe we 
can turn the whole country into a tourist attraction.
    I was in northern California one time, and I was shown 
machinery that could go in and cut down a tree without 
disturbing the other tress around it. And so it seems to me 
that we somehow have to have balance between people like me, 
who want to see jobs for these working people around the 
country, and people like The Wilderness Society and others 
that, it seems to me, do not want us to do anything. So we have 
to hit a middle ground someway.
    And so hopefully, with the testimony we heard today and the 
collaborative approach that some of you have talked about, 
maybe we can reach that middle ground.
    But we are not going to hold you back now for these three 
votes. We are going to go ahead and end this hearing.
    And thank you very much for being here with us today. That 
will conclude this hearing.
    [Whereupon, at 11:16 a.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
